<html>
<title> - TRANSPORTATION SECURITY: PROTECTING PASSENGERS AND FREIGHT</title>
<body><pre>[Senate Hearing 114-406]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-406

       TRANSPORTATION SECURITY: PROTECTING PASSENGERS AND FREIGHT

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 6, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                            U.S. GOVERNMENT PUBLISHING OFFICE
23-357 PDF                           WASHINGTON : 2016                            
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>  
       
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 6, 2016....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
Statement of Senator Ayotte......................................    29
Statement of Senator Cantwell....................................    31
Statement of Senator McCaskill...................................    33
Statement of Senator Heller......................................    35
Statement of Senator Gardner.....................................    37
    Letter dated March 25, 2016 to Hon. Cory Gardner from Kim 
      Day, Chief Executive Officer, Denver International Airport.    37
Statement of Senator Peters......................................    40
Statement of Senator Daines......................................    42

                               Witnesses

Hon. Peter Neffenger, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     4
    Prepared statement...........................................     6

                                Appendix

Hon. Richard Blumenthal, U.S. Senator from Connecticut, prepared 
  statement......................................................    47
Response to written questions submitted to Hon. Peter Neffenger 
  by:
    Hon. Deb Fischer.............................................    47
    Hon. Amy Klobuchar...........................................    53
    Hon. Richard Blumenthal......................................    54

 
       TRANSPORTATION SECURITY: PROTECTING PASSENGERS AND FREIGHT

                              ----------                              


                        WEDNESDAY, APRIL 6, 2016

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, Ayotte, 
Fischer, Moran, Heller, Gardner, Daines, Johnson, Nelson, 
Schatz, Cantwell, McCaskill, Klobuchar, Blumenthal, Markey, 
Booker, Manchin, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Let's get this hearing underway. We'll be 
joined momentarily by Senator Nelson, who is en route. But let 
me start by welcoming Administrator Neffenger here today.
    Thank you so much for making time for us.
    On March 22, terrorists associated with ISIS detonated 
three bombs in Brussels, two at an airport and one in a busy 
metro car. Thirty-five people, including four Americans, were 
killed in this cowardly attack. The victims of these attacks 
remain in our thoughts and prayers. The threat from ISIS, Al 
Qaeda, and their sympathizers is real, and we must ensure that 
sound policies are in place to enhance security and prevent 
these deadly attacks.
    This hearing will focus on the efforts of the 
Transportation Security Administration to secure surface 
transportation modes. In light of the attacks in Brussels, 
however, we will also address the related challenge of 
safeguarding the areas of airports outside passenger screening 
checkpoints.
    Administrator Neffenger, I understand that you were, by 
chance, in the Brussels airport at the time of the attacks, and 
I hope that you will share your thoughts on the horrific events 
there and how we can prevent and prepare for similar threats. I 
understand your written testimony focuses on rail transit and 
pipeline security, but I hope that you will also share with us 
additional information on how we can improve airport security.
    The TSA must learn from past attacks and also look forward 
to new and emerging threats. Sadly, it is clear that terrorists 
associated with Al Qaeda and ISIS have identified passenger 
rail and transit systems as soft targets. It is critical that 
we not neglect these vital parts of our transportation system 
as we look for ways to improve security.
    Understandably, these open systems cannot be secured in the 
same way as our aviation network. Nevertheless, some of the 
techniques we utilize in the aviation network apply to surface 
assets, as well as areas of the airport on the street side of 
the checkpoint.
    While our best tool in combating terrorist attacks 
continues to be good intelligence, TSA has adopted a multi-
layer process to identify threats and mitigate security 
concerns. Former Administrator John Pistole strongly promoted 
the risk-based allocation of TSA's resources. I look forward to 
hearing from the Administrator today about his views on the 
risk-based analysis of threats. TSA cannot and should not be at 
every bus stop or every train station. The agency must leverage 
its relationships with state and local officials and address 
the most significant threats with its limited resources.
    Visible security efforts can also make a difference. 
Explosives detection canines and police presence can deter both 
terrorist threats and criminal activity. TSA's support of these 
programs is invaluable. I'd like to hear more about how these 
teams are allocated among airports and other transportation 
systems.
    TSA is also charged with protecting freight transportation 
networks, including ports, freight railroads, and pipeline 
infrastructure. These critical infrastructure networks are 
crucial components of our nation's economy. TSA receives high 
marks from railroad and pipeline operators who work with the 
agency to identify and mitigate threats. Public-private 
security partnerships between the agency and operators have 
been valuable in hardening these networks.
    On the aviation front, Ranking Member Nelson and I have 
been leading oversight of the Commerce Committee of problems 
some airports have had in successfully managing security 
credentials. This oversight led the Committee to approve 
bipartisan legislation, Senate Bill 2361, the Airport Security 
Enhancement and Oversight Act, to tighten vetting of airport 
workers so that those with ties to terrorists and histories of 
serious criminal activity and behavior do not access sensitive 
airport areas.
    Unfortunately, in the current system, such individuals are 
not always captured. Some of the perpetrators in the deadly 
attacks in Brussels were previously known to authorities as 
criminals, and U.S. terrorism experts believe that ISIS is 
recruiting criminals to join its ranks in Europe.
    As we work to address the threat of an aviation insider 
helping terrorists, criminals who break laws for financial gain 
and those with histories of violence are a good place to start. 
Ensuring that airport workers with security credentials are 
trustworthy is especially important, considering that an ISIS 
affiliate is believed to have killed 224 people on a Russian 
passenger plane leaving Egypt with, experts suspect, the help 
of an airport employee.
    The Committee has also approved legislation, H.R. 2843, the 
TSA PreCheck Expansion Act, which would help expand 
participation in the TSA PreCheck application program by 
developing private sector partnerships and capabilities to vet 
and enroll more individuals. As a result, more vetted 
passengers would receive expedited airport screening, which 
would get passengers through security checkpoints more quickly 
and ensure that they do not pose the kind of easy target that 
ISIS suicide bombers exploited at the Brussels airport. I 
believe both of these important measures can and should advance 
in the full Senate this week.
    Administrator Neffenger, thank you for being here today. We 
need strong leadership and decisive action to address this 
terrorist threat. You are faced with a great challenge of 
getting it right every time, when a terrorist just needs one 
opportunity. I look forward to hearing from you about how TSA 
is working to meet that challenge.
    With that, I'd like to recognize our Ranking Member, 
Senator Nelson, for his opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    In the last 10 years, right after 9/11, 1,900 attacks were 
carried out against transit systems around the world, resulting 
in 4,000 deaths and 14,000 injuries. In aviation, almost 15 
years after 9/11, terrorists are still finding those 
vulnerabilities which the Chairman has noted.
    We have two types of vulnerabilities before us. We have the 
vulnerability of the perimeter of the airport, which was 
addressed in legislation passed last year sponsored by the two 
members at the front of the dais; that allows an Egyptian 
airport employee to sneak in a bomb. Same thing with the gun 
running scheme in Atlanta 2 years ago, that, unbelievably, over 
3 months, 153 firearms were smuggled onto 17 flights, and that 
was in December, the last quarter of 2014. We addressed that in 
this committee in the Airport Security Enhancement and 
Oversight Act of 2015. Hopefully, that is going to be attached 
to the FAA bill.
    But now we have this additional security problem, and that 
is where passengers are bunched up in a soft area, like the 
queued-up lines going through TSA, like the crowded lines at an 
airport check-in counter, like the lines in a bus or train 
station, where people are all huddled up trying to get through 
the security.
    In 2016, less than 2 percent of TSA's total budget and full 
time employees are dedicated to protecting surface 
transportation networks, the bus, the trains, et cetera. And 
while we have yet to suffer a recent attack on a mass transit 
system in the U.S., Brussels is just another reminder of what 
they did in the transit station there.
    TSA can take immediate action by completing the 
recommendations of the 9/11 Commission, which were enacted into 
law in 2007. And, additionally, we have an opportunity to 
improve the law coming up in this current FAA bill with regard 
to the soft targets outside of the security perimeter. So it's 
time to reexamine our transportation security strategy and 
refocus our efforts.
    Mr. Administrator, we thank you for being here today, and 
we look forward to it.
    The Chairman. Thank you, Senator Nelson.
    Administrator Neffenger, thanks again for being here, and 
we look forward to hearing your opening remarks, and then we'll 
look forward to asking some questions. So please proceed.

       STATEMENT OF HON. PETER NEFFENGER, ADMINISTRATOR,

            TRANSPORTATION SECURITY ADMINISTRATION,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Neffenger. Thank you. Good morning, Chairman Thune, 
Ranking Member Nelson, and distinguished members of the 
Committee. Thank you for the opportunity to appear before you 
today to discuss TSA's critical mission to ensure security of 
our Nation's transportation systems.
    First, let me add my condolences and those of all of the 
professionals at TSA to the victims of the Brussels attacks. As 
you noted, Mr. Chairman, I was at the Brussels airport on the 
day of the bombings. I was there for meetings with a number of 
my European counterparts. We arrived right as the bombs 
detonated. And I will tell you, being there on that day, seeing 
the devastation, and seeing the chaos of the airport 
environment and the evil behind it was a stark reminder of the 
importance of the work that we do at TSA every day to protect 
travelers.
    I've been on the job now for 9 months. When I arrived, I 
was confronted with the disturbing results of the Inspector 
General's covert testing, and I found an organization in 
crisis. But what I also found was an organization of nearly 
60,000 dedicated professionals who are committed to our 
national security mission.
    It was immediately clear to me that while we needed to 
tackle what was wrong, the ingredients and the commitment were 
there to build and evolve what was right. We've come a long way 
in a short time. We've determined the root causes of the 
testing failures. We have retrained our entire work force. We 
have established the first ever full time TSA Academy, and 
we've begun a deep examination of processes and practices 
across the agency.
    Of course, there are challenges we must continue to 
address, both immediate and longer term, but I can assure you 
and the public that we serve that we are focused on our 
counterterrorism mission and are committed to delivering 
excellence in every aspect of what we do. As an integral member 
of a much larger counterterrorism network, TSA employs a range 
of capabilities to understand and track threats to 
transportation; continuously vet travelers and credentialed 
employees; and to deter, detect, and disrupt potential enemies.
    At our checkpoints, for example, we screen an average of 2 
million passengers each day at nearly 440 airports. To improve, 
we are investing heavily in our work force. All of our people 
are being trained with a better understanding of why we do what 
we do and the nature of the threats that we face. And we have 
shifted our focus to security effectiveness and have instituted 
comprehensive training at that new TSA Academy at the Federal 
Law Enforcement Training Center in Georgia, an academy that has 
already helped to build a connection to our mission, enhance 
morale, and ensure our employees better understand their role 
in fighting terrorism.
    But recent attacks remind us that terrorist organizations 
remain committed to attacking the global transportation system. 
At present, we have no specific credible intelligence of any 
plot to conduct a similar attack in the United States, but we 
must remain vigilant. These events highlight the important work 
we do with international partners to mitigate risks at last 
point of departure airports, to inspect and assess compliance 
with international standards, and to build international 
capacity in securing passenger and cargo flights bound to the 
United States.
    The attacks in Brussels further highlight the imperative to 
address security beyond airport checkpoints. That's where our 
shared responsibility with partners makes a difference. We work 
with Federal, state, local, and tribal partners to provide law 
enforcement presence throughout airports and surface 
transportation hubs across the nation.
    The resources of countless agencies deliver thousands of 
officers who help to secure our national transportation 
network. TSA's Law Enforcement Officer Reimbursement Program 
provides approximately $45 million each year to law enforcement 
agencies for enhanced law enforcement presence. TSA also 
deploys Visible Intermodal Prevention and Response, or VIPR, 
teams of integrated TSA and local law enforcement specialists 
to patrol public areas to provide a visible deterrent and 
response capability.
    We are also focused on the insider threat posed by 
employees with access to transportation facilities and 
infrastructure. And in collaboration with stakeholders, 
including the Aviation Security Advisory Committee, we have 
taken a number of actions to enhance security, including 
requiring enhanced criminal history records checks of aviation 
workers, piloting the FBI's Rap Back capability which provides 
continuous criminal background checks, and conducting a 
nationwide vulnerability assessment airport by airport to 
create an expectation that every employee could be stopped and 
inspected every day.
    Securing surface transportation systems is a complex 
undertaking that requires extensive collaboration among 
transportation operators. We support these owners and operators 
in threat awareness, information sharing, the identification of 
vulnerabilities, development of security programs to address 
risks, exercises to assess and improve readiness, and the 
implementation of those security programs. They, in turn, 
invest millions of their own funds to maintain and enhance 
system security.
    Recent attacks remind us that the threat to transportation 
is very real and that our work to ensure freedom and protect 
our Nation is never done. While challenges remain, I can 
confidently and without reservation tell you that we at TSA are 
on the job and intensely focused on protecting the public.
    I will end with a note about the summer travel. The good 
news is a strong economy means more people than ever are 
traveling. This economic health, however, places enormous 
pressure on our transportation systems. In my written testimony 
and our communications with this committee, we've identified 
the immediate steps we are taking to hire, train, and field 
additional frontline workforce and to collaborate with airlines 
and airports to address the expected high volume of travel this 
summer.
    Two key points: Travelers' security comes first, and we 
cannot compromise on protecting travelers. Second, the expected 
volume means there will be longer waits during peak periods, 
and travelers need to be prepared. We will continue to identify 
ways to immediately improve efficiency without compromising 
security.
    Thank you again for your continued support and advocacy for 
TSA and for the men and women on TSA's front lines. I look 
forward to your questions.
    [The prepared statement of Mr. Neffenger follows:]

 Prepared Statement of Peter Neffenger, Administrator, Transportation 
     Security Administration, U.S. Department of Homeland Security
    Good morning, Chairman Thune, Ranking Member Nelson, and 
distinguished Members of the Committee. I appreciate the opportunity to 
appear before you today to discuss my vision for the Transportation 
Security Administration's (TSA) role in surface transportation 
security.
    The surface transportation network, consisting of mass transit 
systems, passenger and freight railroads, highways, motor carrier 
operators, pipelines, and maritime facilities, is immense. The New York 
Metropolitan Transportation Authority (NY MTA) alone transports over 11 
million passengers daily--and represents just one of the more than 
6,800 U.S. public transit agencies for which TSA has oversight. 
Securing surface transportation systems in a society that depends upon 
the free movement of people and commerce is a complex undertaking and 
one that requires extensive collaboration with surface transportation 
operators. I have personally witnessed the complex nature of the 
surface transportation network. Recently, I visited the Conrail 
facility in Oak Island, NJ, the New Jersey Transit system, the VIA 
Metropolitan Transit system in San Antonio, TX and the Metropolitan 
Atlanta Regional Transportation Authority system in Atlanta, GA.
    Recent terror attacks on mass transit and passenger rail carriers 
in France and Belgium provide a compelling reminder of the need to 
remain vigilant. While there is no specific, credible terrorist threat 
to the U.S. passenger rail system, the August 2015 incident in France 
and the recent Brussels attacks underscore the need to continue to 
build upon our surface transportation successes through stakeholder 
communication, coordination, and collaboration. Surface transportation 
systems are, by nature, open systems. In the face of a decentralized, 
diffuse, complex, and evolving terrorist threat, TSA responds in a 
nimble fashion, employing cooperative and collaborative relationships 
with key stakeholders to develop best practices, share information, and 
execute security measures to strengthen and enhance the security of 
surface transportation networks.
    Unlike the aviation mode of transportation, direct responsibility 
to secure surface transportation systems falls primarily on the system 
owners and operators. TSA's role in surface transportation security is 
focused on program oversight, system assessments, operator compliance 
with voluntary industry standards, collaborative law enforcement and 
security operations, and regulations. TSA could not accomplish its 
essential counterterrorism security mission without our partners 
voluntarily adopting security improvements and sharing best practices. 
Security and emergency response planning is not new to our surface 
stakeholders; they have been working under Department of Transportation 
(DOT) and U.S. Coast Guard (USCG) programs and regulations for many 
years. Although DOT's regulations relate primarily to safety, many 
safety activities and programs also benefit security and help to reduce 
risk. In the surface environment, TSA has built upon these standards to 
improve security programs with minimal regulations.
Federal, State, Local, and Private Capabilities and Operations
    The Nation's surface transportation systems affect the daily life 
of many Americans. Tens of thousands of individual companies and 
agencies operate within the five modes of the surface transportation 
landscape. More than 500 individual freight railroads operate on nearly 
140,000 miles of track carrying essential goods. Eight million large 
capacity commercial trucks and almost 4,000 commercial bus companies 
travel on the four million miles of roadway in the United States and on 
more than 600,000 highway bridges and through 350 tunnels greater than 
300 feet in length. As previously noted, in the mass transit and 
passenger rail mode, more than 6,800 transit agencies represent a wide 
range of systems from very small bus-only systems in rural areas to 
very large multi-modal systems in urban areas. Surface transportation 
operators carry approximately 750 million intercity bus passengers and 
10 billion passenger trips on mass transit each year. The pipeline 
industry consists of approximately 3,000 private companies who own and 
operate more than 2.5 million miles of pipelines transporting natural 
gas, refined petroleum products, and other commercial products that are 
critical to the economy and the security of the United States.
    Securing this vast network requires a group effort. TSA oversees 
the development and implementation of risk-based security initiatives 
for surface transportation in coordination with our security partners.
    TSA, on behalf of the Department of Homeland Security (DHS), is a 
co-Sector Specific Agency alongside DOT and USCG for the transportation 
sector. DOT and TSA work together to integrate safety and security 
priorities. As part of the DHS-led Critical Infrastructure Partnership 
Advisory Council (CIPAC) framework, TSA, DOT and the USCG co-chair 
Government Coordinating Councils to facilitate information sharing and 
coordinate on activities including security assessments, training and 
exercises. Additionally, TSA leverages its core competencies in 
credentialing, explosives detection, and intermodal security to support 
the USCG as lead agency for maritime security.
    TSA is directly responsible for security at our Nation's airports 
through our checkpoint operations, personnel, and technology. However, 
direct responsibility for securing surface transportation systems falls 
on the owners and operators of those systems. TSA's role is to support 
these owners and operators in the identification of risk, develop 
security programs to address that risk, and help the owners and 
operators implement those security programs.
    TSA's spending on surface transportation realizes a massive return 
on its budgetary investment. TSA's funding resources and personnel 
directly support ongoing security programs by committed security 
partners who, in turn, spend millions of their own funds to secure 
critical infrastructure, provide uniformed law enforcement and 
specialty security teams, and conduct operational activities and 
deterrence efforts. Industry's efforts are fueled by the resources that 
TSA's funding provides. We have invested our resources to help our 
security partners identify vulnerabilities and risk in their agencies. 
Surface transportation entities know their facilities and their 
operational challenges and with their knowledge and our assistance, 
they are able to more accurately direct their own resources in addition 
to the hundreds of millions of dollars in Federal security grant 
funding, to reduce the risk of a terrorist attack. I will go into 
greater detail on the resources and programs that TSA provides later in 
this testimony, but some highlights include facilitating security 
exercises that identify vulnerabilities that can then be addressed 
before an actual event occurs; developing security training programs 
for surface transportation employees; engaging with industry in the 
development of security policy and programs such as best practices and 
security guidelines, which inform and influence industry on how and 
where to spend their security dollars; providing thorough security 
system and program assessments to identify areas that need attention, 
and working with those systems to address those deficient areas to 
raise their security baselines; developing the framework for awarding 
security grant funds, which have totaled over $2.3 billion since Fiscal 
Year (FY) 2006; augmenting local operational deterrence capabilities 
with Federal teams and support; and sharing actionable information in a 
timely fashion, including guidance on ways in which industry can 
enhance their security posture in response to potential threats. TSA 
has achieved these successes by spending approximately 3 percent of its 
budget on surface transportation security. These programs demonstrate 
the collaborative effort among Federal, state, local, and private 
entities to secure surface transportation systems and assets.
    TSA works with state, local, and industry partners to assess risk, 
reduce vulnerabilities, and improve security through collaborative 
efforts. Collaboration between TSA and industry occurs through daily 
interaction and engagement, as well as through formal structures 
including the DHS-led CIPAC framework, Sector Coordinating Councils, 
and other industry-centric organizations such as the Mass Transit 
Policing and Security Peer Advisory Group. TSA, security agencies, and 
the corporate leadership of industry and municipal operator 
stakeholders jointly pursue policies to secure surface systems, 
including implementation of exercises and training, physical and cyber 
hardening measures, and operational deterrence activities.
Regional Alliance Including Local, State, and Federal Efforts 
        (RAILSAFE)
    TSA coordinates with Amtrak and NY MTA to support RAILSAFE 
operations, in which Amtrak police and law enforcement officers from 
Federal, state, local, rail, and transit agencies deploy at passenger 
rail and transit stations and along the railroad rights-of-way to 
exercise counterterrorism and incident-response capabilities. This 
coordinated effort involves activities such as heightened station and 
right-of-way patrols, increased security presence onboard trains, 
explosives detection canine sweeps, random passenger bag inspections, 
and counter-surveillance. RAILSAFE operations are conducted several 
times a year to deter terrorist activity through unpredictable security 
activities. On average, more than 40 states and Canada, and over 200 
agencies participate in RAILSAFE operations. The most recent RAILSAFE 
operation was conducted on March 11, 2016, with more than 1,100 
officers across 180 agencies representing 41 states and Canada 
participating.
Exercises and Training
    TSA has developed several training and exercise programs to assist 
industry operators in directing their resources and efforts towards 
effectively reducing risk. With the support of Congress, TSA developed 
the Intermodal Security Training and Exercise Program (I-STEP). TSA 
facilitates I-STEP exercises across all surface modes to help 
transportation entities test and evaluate their security plans, 
including prevention and preparedness capabilities, ability to respond 
to threats, and cooperation with first responders from other entities. 
TSA uses a risk-informed process to select the entities that receive I-
STEP exercises and updates I-STEP scenarios as new threats emerge to 
ensure industry partners are prepared to exercise the most appropriate 
countermeasures. Since FY 2008, TSA has conducted over 105 I-STEP 
exercises throughout 40 High Threat Urban Areas (HTUAs), including 
eight conducted so far this fiscal year, such as motorcoach exercises 
in Los Angeles and Myrtle Beach; mass transit exercises in Houston and 
San Antonio; and maritime exercises in New York City and Washington, 
D.C. Additionally, TSA conducted an I-STEP exercise in Philadelphia in 
August 2015 to help that region prepare for the Papal visit.
    In FY 2015, TSA developed and began utilizing the Exercise 
Information System (EXIS) tool, which examines a surface transportation 
operator's implementation of security measures in the areas of 
prevention, protection, mitigation, response, and recovery. EXIS helps 
transportation operators identify areas of strength in an operator's 
security program, as well as those areas that need attention where they 
can then focus or redirect resources, such as security grant funding. 
TSA also is able to provide operators with several resources that can 
improve capability in areas such as training, public awareness 
campaigns, and best practices that other systems have implemented to 
address security concerns. Since program inception, TSA has facilitated 
16 EXIS exercises with stakeholders in HTUAs.
    TSA disseminates training materials and information to stakeholders 
through several avenues. Through the Security Measures and Resources 
Toolbox (SMARToolbox) and other security and public awareness training 
materials, TSA provides surface transportation professionals relevant 
insights into security practices used by peers throughout the industry 
and mode-specific recommendations for enhancing an entity's security 
posture. TSA developed the Surface Compliance Analysis Network (SCAN) 
to analyze daily incidents reported to the Transportation Security 
Operations Center to identify security-related trends or patterns. TSA 
disseminates SCAN trend reports to affected entities, as well as to the 
broader industry for situational awareness. SCAN reports have been able 
to identify incidents that when taken individually may not seem like an 
issue or threat, but when compiled over time and analyzed locally, 
regionally, and nationally, present activities that may be pre-
operational activity aimed at detecting the response methods and/or 
capabilities of surface transportation systems. The number of similar 
incidents reported in relatively short periods of time indicates the 
intent of a perpetrator(s) to disrupt operations and potentially cause 
damage and injuries. These SCAN trend reports provide insight into 
those potential threats and operations.
    TSA's First Observer<SUP>TM </SUP>security domain awareness program 
delivers web-based training to surface transportation professionals, 
encouraging frontline workers to ``Observe, Assess and Report'' 
suspicious activities. Approximately 100,000 individuals have been 
trained on the First Observer<SUP>TM </SUP>Program. Operators have 
credited First Observer<SUP>TM </SUP>Program training in their ability 
to disrupt a potential Greyhound bus hijacking situation in February 
2011. Also in February 2011, a concerned Con-way employee followed 
principles he received from the Program's training to alert authorities 
about inconsistencies regarding chemicals shipped and their intended 
use, which led to the arrest of an individual who was then charged with 
attempting to bomb nuclear power plants and dams along the West Coast, 
as well as the home of former President George W. Bush.
    TSA strongly encourages the use of the If You See Something, Say 
Something<SUP>TM </SUP>public awareness campaign--which the NY MTA 
created using DHS security grant funding--to make the traveling public 
the ``eyes and ears'' of the transportation systems. Similarly, TSA's 
Not On My Watch program is directed at the surface transportation 
community and designed to make employees of surface transportation 
systems part of awareness programs intended to safeguard national 
transportation systems against terrorism and other threats. TSA also 
works with industry to identify emerging security training needs, 
develop new training modules, and refresh existing training.
    In September 2014, TSA began a program to provide senior-level 
transportation security officials with a detailed exposure to TSA's 
surface security programs and policies. Once a quarter, a senior 
executive from a transportation entity is invited to spend four to six 
weeks at TSA to gain firsthand experience in TSA's counterterrorism and 
risk reduction efforts and foster beneficial relationships between TSA 
and industry stakeholders. Participants in the program have included 
Amtrak, the Washington Metropolitan Area Transit Authority, NY MTA, and 
the Bay Area Rapid Transit District. Executives from these agencies 
were given a broad exposure to TSA operations in the surface and 
aviation modes, and left with a better appreciation for the scope and 
breadth of the services TSA provides for all modes of transportation. 
The program also allows TSA to use the senior executives as sounding 
boards for potential security programs and policies, to ensure that our 
initiatives not only address their greatest security concerns, but are 
feasible from an operational perspective at the local levels of 
transportation.
Sector-Specific Programs, Assessments, and Inspections
    TSA performs regulatory inspections on railroad operations, and 
voluntary assessments of systems and operations within all of the 
surface transportation modes to ensure operator compliance with 
security regulations and adoption of voluntary security practices. TSA 
deploys 260 Transportation Security Inspectors for Surface (TSI-S) to 
assess and inspect the security posture of surface entities.
    TSA and its partners in the freight rail industry have 
significantly reduced the vulnerability of rail security-sensitive and 
Toxic Inhalation Hazard (TIH) materials transported through populous 
areas by reducing urban dwell time. The national rate of observed 
attendance for TIH shipments is greater than 91 percent, with a 
regulatory compliance rate above 99 percent.
    In 2006, TSA established the Baseline Assessment for Security 
Enhancement (BASE) program, through which TSA Inspectors conduct a 
thorough security program assessment of mass transit and passenger rail 
agencies as well as over-the-road bus operators. These inspectors help 
local transit systems develop a ``path forward'' to remediate 
vulnerabilities identified in the vulnerability assessments, and 
identify resources that TSA or other areas of the Federal Government 
can provide to help transit systems raise their security baseline. The 
results of these assessments are analyzed to influence TSA policy and 
development of voluntary guidelines to ensure that our voluntary 
policies and programs are addressing the most critical vulnerabilities 
from a security perspective. TSA performs these voluntary BASE 
assessments with emphasis on the 100 largest mass transit and passenger 
railroad systems measured by passenger volume, which account for over 
95 percent of all users of public transportation. TSA has conducted 
over 430 assessments on mass transit and passenger rail systems since 
2006. In FY 2015, TSA Inspectors completed 117 BASE assessments on mass 
transit and passenger rail agencies, of which 13 resulted in Gold 
Standard Awards for those entities achieving overall security program 
management excellence. In 2012, TSA expanded the BASE program to the 
highway and motor carrier mode and has since conducted over 400 reviews 
of highway and motor carrier operators, with 98 reviews conducted in FY 
2015. On average, approximately 150 reviews are conducted on mass 
transit and highway and motor carrier operators each year, with 
numerous reviews in various stages of completion for FY 2016.
    TSA also regularly engages transit and passenger rail partners 
through the Transit Policing and Security Peer Advisory Group (PAG), 
which represents 24 of the largest public transportation systems in the 
United States, Canada, and the United Kingdom, and through regular 
monthly and as-needed industry-wide information sharing calls, such as 
calls conducted after the attacks in Paris and Brussels. Our 
participation in forums such as the annual Mass Transit and Passenger 
Rail Security and Emergency Management Roundtable, and our continuing 
work with the PAG enable us to understand the security needs of our 
domestic and international security partners to collaboratively develop 
programs and resources to meet critical needs. We use the PAG as a 
sounding board, in an advisory capacity, as we develop surface 
transportation policies, guidelines, and best practices. Through our 
work with the PAG and the Roundtables, we have restructured how 
security grant funds are awarded to high-risk transportation entities, 
ensuring that the funding priorities address the current threat and 
risks that our transportation providers face. We also developed a list 
of nationally critical infrastructure assets in order to better direct 
Federal and local resources to implement security measures to protect 
those assets. Since FY 2006, over $565 million in Transit Security 
Grant Program funding has been awarded for security projects 
specifically to harden these critical assets. We have also been able to 
enhance and refine the ways and timeframes in which we share threat and 
intelligence information, through mechanisms such as Security Awareness 
Messages, and regular as-needed industry information sharing and 
intelligence conference calls. TSA also hosts classified briefings for 
cleared industry stakeholders when warranted.
    TSA has established a productive public-private partnership with 
the pipeline industry to secure the transport of natural gas, 
petroleum, and other products. TSA conducts both physical and corporate 
security reviews (CSR) within the pipeline sector, with over 400 
physical security reviews of critical facilities of the highest risk 
pipeline systems completed since 2008 and over 140 corporate security 
reviews of high-risk systems since 2002. TSA completed six CSRs in FY 
2015; four have been completed in FY 2016 with an additional four 
scheduled for completion by the end of the fiscal year. The 
Implementing Recommendations of the 9/11 Commission Act of 2007 (110-
53) required TSA to develop and implement a plan for inspecting the 
critical facilities of the top 100 pipeline systems in the Nation. TSA 
conducted these required inspections between 2008 and 2011 through the 
Critical Facility Inspection program and is now focused on regular 
recurring reviews through TSA's Critical Facility Security Review 
(CFSR) program. TSA completed 46 CFSRs in FY 2015; 21 have been 
completed in FY 2016 with 16 more expected to be completed by the end 
of the fiscal year.
    TSA has developed pipeline security guidance with the assistance of 
pipeline system owners and operators, pipeline industry trade 
association representatives, and government partners. Widespread 
implementation of this guidance by the pipeline industry has enhanced 
critical infrastructure security throughout the country. TSA is 
currently working with stakeholders to update these guidelines. There 
has been an increase in the quality of the company corporate security 
programs reviewed during CSRs, as the guidance has served as a template 
for establishing a corporate security program including a Corporate 
Security Plan. For pipeline critical facilities reviewed during CFSRs, 
there has been an increase in the number of facilities conducting 
security drills and exercises, an increase in coordination with local 
law enforcement agencies, and an increase in the number of facilities 
conducting security vulnerability assessments, all of which are 
recommended practices in the Guidelines.
    The United States imports more petroleum from Canada than any other 
nation, much of it through pipelines. TSA has worked closely with 
Canadian security counterparts to develop an effective capability to 
secure the U.S.-Canadian pipeline network. TSA and the Canadian 
National Energy Board coordinate closely on pipeline security matters 
to include the exchange of information on assessment procedures, 
exercises, and security incidents. Since 2005, TSA and Natural 
Resources Canada have cosponsored the International Pipeline Security 
Forum, an annual two-day conference that enhances the security domain 
awareness of hazardous liquid and natural gas pipeline operators and 
provides opportunities for discussion of major domestic and 
international pipeline security issues. The Forum enhances government 
and industry pipeline security domain awareness, increases information 
sharing including industry threat information, provides opportunities 
for discussion of major domestic and international pipeline security 
issues, and improves effectiveness of TSA stakeholder outreach efforts 
promoting agency pipeline security initiatives including physical and 
cyber security, security exercises, and other best practices. It 
presents a unique opportunity for TSA to directly engage with a large 
number of hazardous liquids and natural gas pipeline industry personnel 
as well as key government and law enforcement partners. Approximately 
160 attendees, including pipeline system owners and operators, pipeline 
related trade associations, representatives and officials from the U.S. 
and Canadian governments, and members of the security, intelligence and 
law enforcement communities from the U.S., Canada, and abroad, 
participate in the Pipeline Security Forum.
    Beginning in 2004, and also with Congressional support and 
authorization, TSA expanded the National Explosives Detection Canine 
Team Program to include mass transit/passenger rail systems and 
ferries. Currently, 172 surface and intermodal canine teams are 
deployed to high-risk systems.
    TSA and the USCG jointly administer the Transportation Worker 
Identification Credential (TWIC) program, which provides a uniform, 
industry-wide, biometric, tamper-resistant credential issued following 
successful completion of a TSA-conducted security threat assessment 
(STA). Following successful completion of the STA and payment of 
relevant fees, eligible maritime workers are provided a tamper-
resistant biometric credential that permits unescorted access to secure 
areas of port facilities and vessels regulated by the USCG. These 
security benefits are most fully realized when the credential is used 
in conjunction with readers that can provide electronic verification.
    TSA is responsible for enrollment, STAs, systems operations and 
maintenance related to TWICs, and inspections to ensure TWICs used for 
access are valid and offered by the person to whom the credential was 
issued. The USCG is responsible for establishing and enforcing access 
control standards including requirements for TWIC readers at regulated 
facilities and vessels. Since deployment of the TWIC program in 2007, 
TSA has conducted comprehensive STAs and issued TWICs to over 3.5 
million workers while identifying and preventing approximately 50,000 
TWIC applicants who did not meet the required security standards from 
receiving a TWIC. In 2014, TSA implemented TWIC ``OneVisit,'' which 
allows workers to be able to enroll for a TWIC and have their TWIC 
issued to them via mail without returning to the enrollment center. 
This was a significant accomplishment to alleviate the burden to 
industry and workers while maintaining security of the biometric 
credential.
Securing Surface through Grants
    TSA provides the Federal Emergency Management Agency (FEMA) with 
subject matter expertise to assist in the development of the Notice of 
Funding Opportunities for Surface Transportation Security Grant 
Programs. These FEMA grants support surface transportation risk 
mitigation by applying Federal funding to critical security projects 
with the greatest security effects. Between FY 2006 and 2015, over $2.3 
billion in transportation security grant funding was awarded to freight 
railroad carriers and operators, over-the-road bus operators, the 
trucking community, and public mass transit owners and operators, 
including Amtrak, and their dedicated law enforcement providers. One-
hundred million dollars was appropriated in FY 2016 for mass transit, 
passenger rail, and motor coach security grants, which are currently in 
the application process. Applications are due April 25, 2016, and DHS 
expects to announce final award allocations on June 29, 2016.
    TSA reviews the grant program framework and makes recommendations 
to FEMA, ensuring funding priorities are based on identified or 
potential threat and vulnerabilities identified through TSA assessment 
programs such as the BASE program, together with consideration of 
potential consequences. For instance, in 2007, TSA's review of the 
industry scores in the training category of the BASE assessments 
indicated a potential vulnerability, and TSA addressed the 
vulnerability by modifying the Transit Security Grant Program (TSGP) to 
prioritize frontline employee training. In FY 2011, TSA's review of 
BASE scores and discussions with industry revealed that vulnerabilities 
at nationally critical infrastructure assets were not being addressed 
at all, or as quickly as they could be. TSA worked with FEMA to 
overhaul the TSGP framework to prioritize these assets (``Top Transit 
Asset List'') for funding through a wholly competitive process. As a 
result over $565 million has been awarded to protect these assets, 
resulting in over 80 percent of them being considered secure from a 
preventative standpoint.
    As a result of information gained from TSA activities, DHS is able 
to direct grant funds to activities that have the highest efficacy in 
reducing the greatest risk, such as critical infrastructure 
vulnerability remediation, equipment purchases, anti-terrorism teams, 
mobile screening teams, explosives detection canine teams, training, 
drills and exercises, and public awareness campaigns. For example, the 
NY MTA has received $17 million in public awareness funding that helped 
create the If You See Something, Say Something<SUP>TM </SUP>campaign, 
which was credited with preventing a potential terrorist event in Times 
Square in New York City. Over $276 million in grant funds have been 
used to hire over 520 specialty transit law enforcement officers in the 
forms of K-9 teams, mobile explosives detection screening teams, and 
Anti-Terrorism Teams. Transit systems in major cities including New 
York City, Washington, D.C., Chicago, and Los Angeles use these grant-
funded teams and patrols not only to conduct regular operations, but 
also to provide extra local security and deterrence in response to 
attacks across the world, including the recent attack in Brussels.
Visible Intermodal Prevention and Response (VIPR) Teams
    Visible Intermodal Prevention and Response (VIPR) operations 
promote confidence in and protect the Nation's transportation systems 
through targeted deployment of integrated TSA assets, utilizing 
screening and law enforcement capabilities in coordinated activities to 
augment security of any mode of transportation. VIPR teams consist of 
Federal Air Marshals, Behavior Detection Officers, Transportation 
Security Specialists-Explosives, Transportation Security Inspectors and 
canine teams who work closely with Federal, state, and local law 
enforcement partners and stakeholders in the aviation and surface 
transportation sectors. TSA VIPR Teams are deployed at the request of 
and in coordination with stakeholder partners. Deployments are 
coordinated with other Federal, state, and local law enforcement and 
industry security partners throughout the United States to augment the 
visible presence of these law enforcement stakeholders who exercise 
primary jurisdiction in responding to transportation security needs. 
Following the recent terrorist attacks in Brussels, Belgium, the 
capability was invaluable to the surface transportation sector in 
providing a visible deterrent, as well as an armed response capability.
    Since the November 2013 shooting at the Los Angeles International 
Airport in which a Transportation Security Officer was killed, TSA has 
deployed VIPR teams 60 percent of the time in the aviation mode and 40 
percent in surface modes. In FY 2015, TSA VIPR teams conducted 12,024 
operations, including 7,257 (60 percent) in aviation mode venues and 
4,757 (40 percent) in surface mode venues. The VIPR program has a 
nationwide footprint, with the 31 VIPR teams based in 20 Office of Law 
Enforcement/Federal Air Marshal Service field offices.
    The VIPR program has updated its concept of operations to establish 
and implement a framework for risk-based assessment of potential 
deployment locations, allow for flexibility based upon the most current 
intelligence and threat, provide scheduling parameters to enhance risk 
mitigation, and further enable measurement of performance and 
effectiveness. The VIPR program is an excellent example of 
collaboration among Federal, state, local, and industry partners, 
leveraging existing resources to provide enhanced detection 
capabilities and a visible deterrent to terrorist activity.
Cybersecurity
    TSA supports DHS cybersecurity efforts based on the National 
Institute of Standards and Technology cybersecurity framework, 
including within surface modes. The cybersecurity framework is designed 
to provide a foundation industry can implement to sustain robust 
cybersecurity programs, and TSA shares information and resources with 
industry to support adoption of the framework. TSA also provides a 
cybersecurity toolkit designed to offer the surface transportation 
industry an array of available no cost resources, recommendations, and 
practices. Additionally, within the pipeline sector, TSA is 
coordinating a voluntary cyber-assessment program with the Federal 
Energy Regulatory Commission to conduct cybersecurity assessments of 
pipeline entities. TSA works closely with the pipeline industry to 
identify and reduce cybersecurity vulnerabilities, including through 
classified briefings to increase awareness of the threat. TSA's efforts 
in cybersecurity are critical to securing surface transportation modes 
from cyber intrusions.
Implementing Recommendations of the 9/11 Commission Act of 2007
    TSA has worked diligently to implement the requirements of the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (Public 
Law 110-53). Under my leadership, TSA has prioritized the few remaining 
outstanding requirements of the Act. These mandates include the 
issuance of regulations relating to security training (Sections 1408, 
1517, and 1534) and security planning and vulnerability assessments 
(Sections 1405, 1512, 1531), as well as establishment of a program to 
complete name-based background and immigration checks for public 
transportation and railroad employees (Sections 1411 and 1520). TSA is 
making significant progress on all of these rulemakings and continues 
to dedicate substantial time and resources towards this effort. TSA 
will continue its prioritization of these rules notwithstanding the 
complexity and time consuming nature of the rulemaking process.
Conclusion
    TSA is dedicated to securing the Nation's transportation systems 
from terrorist activities and attacks. Through its voluntary programs 
and minimal regulations, TSA mitigates security challenges faced by an 
open-by-nature surface transportation system in collaboration with our 
industry and government partners. I am focused on improving surface 
transportation security through the development and implementation of 
intelligence-driven, risk-based policies and plans, and I appreciate 
the Committee's support of TSA's goals. Thank you for the opportunity 
to discuss these important issues.

    The Chairman. Thank you, Administrator Neffenger. As you 
mentioned--and, of course, you were there--the Brussels attack 
was directed at aviation infrastructure, but it wasn't just an 
attack on that. It was also the metro car, as we mentioned, 
between stations which killed 13 people and injured a lot more. 
Rail and transit are very open systems, much like the non-
sterile areas of airports, and could easily be perceived as 
soft targets.
    How have you communicated with surface transportation 
operators about the potential for a Brussels-like attack on a 
U.S. transportation system, and do you believe that transit 
systems and passenger railroads, in particular, are prepared 
for an attack like the tragic events in Brussels?
    Mr. Neffenger. Mr. Chairman, thank you for that question. 
That's a question that's been on everyone's minds, certainly 
since the Brussels attacks. But I will tell you it has been on 
our minds for a long time, and it's one of the fundamental 
questions that we've asked ourselves across the surface 
transportation world for quite a number of years.
    I will tell you that there's a--it starts, really, with 
good intelligence. And, as you know from the briefing that we 
gave this committee earlier this month, there's an extensive 
network of intelligence professionals focused on the 
transportation threats on all modes of transportation. So it 
really begins with an assessment of what we think the current 
threats are, who the potential groups are that would deliver 
those threats, and, more importantly, who the individuals are 
that might be moving through the system that might provide a 
particular threat.
    The next step, of course, is to identify the 
vulnerabilities across the system, and we've worked very 
closely with our partners across the systems. I've spent quite 
a bit of time over the 9 months I've been on board meeting with 
police chiefs, transit professionals, transit authority 
directors to look at the types of systems that we have in 
place.
    I've been very encouraged by what I've seen. There is an 
extensive network of law enforcement professionals and security 
professionals arrayed across the system that really leverage 
the investment that we make from TSA to establish a very high 
level of security standards across the system, an awareness of 
what's going on. There's a great deal of shared intelligence 
and a lot of sharing of best practices, and we help facilitate 
many of the groups and teams that get together to do that.
    So while any open system is by definition at risk, I think 
that there is a great deal being done to ensure that we reduce 
that risk and we understand how that risk might present itself.
    The Chairman. Just as a follow up to that, less than 2 
percent of the president's budget request for TSA was directed 
to the security of surface transportation. I know we all 
understand that the threats to the aviation sector are very 
real. But as a follow up, do you believe in terms of the 
resource allocation that the TSA is doing enough to ensure the 
security of passengers on our railroads and transit systems?
    Mr. Neffenger. I think that we've been able to, as I said, 
leverage thousands of professionals across the country, and you 
have some superb local and state law enforcement entities that 
are doing work in that sector, whether it's the Amtrak Police, 
the New York City Transit Police, the New Jersey Transit 
Police, and so forth. There are more than I can mention. So 
we've done that.
    I think that if you're asking an operator if he would put 
more resources to use, yes, I would. And what I would do is I 
would put them to use in support of those entities that are 
doing really good efforts out there. We coordinate with them, 
we integrate our teams with their teams, and we work to 
increase our ability to understand what might be happening out 
there, understanding the threats and the vulnerabilities, and 
then share that information in a way that allows us to deploy 
our resources most effectively.
    The Chairman. Yesterday, Homeland Security Secretary 
Johnson endorsed a new proposal by Senate Democrats to double 
the number of Visible Intermodal Prevention and Response, or 
VIPR, teams nationwide from 30 to 60. By contrast, the 
president's Fiscal Year 2016 budget request called for the 
elimination of two VIPR teams and 23 related positions. In your 
written testimony, you note that TSA's VIPR program, which 
operates in both aviation and surface transportation venues, 
has updated its concept of operations to focus on risk-based 
deployments.
    The question is: Have the events of the last two months 
since the budget was released convinced the administration that 
doubling of the VIPR program is needed to address current 
threats?
    Mr. Neffenger. Well, I appreciate the attention that 
Congress is giving to TSA resources, and I will tell you this, 
Mr. Chairman. If I were to receive more VIPR teams, I would be 
able to put them to use, and I would put them to use across the 
transportation system. I would be able to deploy them more 
effectively with our partners in the surface world and would 
deploy them to more public areas of our aviation environment.
    The Chairman. Let me just ask one last question here. In 
the past year and a half, we have seen repeated abuses of 
airport SIDA badges that grant airport workers access to the 
secure areas of the airport. These are badges that are used by 
airport and airline workers to bypass TSA screening checkpoints 
and, in this case, facilitate criminal activities like gun and 
drug smuggling. These incidents have raised a lot of questions 
about whether our airports are vulnerable to an insider threat.
    As I mentioned earlier, in response, along with our 
committee members, Senators Nelson, Ayotte, Cantwell, Johnson, 
and Klobuchar, we have introduced the Airport Security 
Enhancement and Oversight Act to help counter some of these 
aviation insider threats by improving the vetting, 
credentialing, and inspections of airport workers. Do you think 
it's important to update and expand the criminal background 
checks and random inspections of airport workers that have 
access to the secure areas of an airport?
    Mr. Neffenger. Mr. Chairman, thanks for that question. As 
you know, that's been a big concern over the time that I've 
been here and as I came in. It was on the heels of the incident 
in Atlanta and some other concerns. As you noted in your 
opening statement, we've had some of those same concerns with 
respect to the attacks overseas.
    So I'm very pleased and happy that Congress has given us 
the support that they have. So I think you're right to focus on 
that. The additional access--I know this committee, in 
particular, was very supportive of our access to additional 
TIDE categories. That's made a huge difference for us in terms 
of recurrent vetting. I'd like to see us fully implement the 
FBI Rap Back program before the end of this Fiscal Year so that 
we can do continuous recurrent criminal vetting, and I think 
anything we can do to tighten the oversight of the insider 
population to verify their trusted status, I think, is worth 
doing.
    The Chairman. Thank you.
    Senator Nelson?
    Senator Nelson. Mr. Chairman, I want to take the 
opportunity, particularly, to tell our Democratic members of 
the Committee that, apparently, we just received word that 
there has been an agreement on the tax issue, and, therefore, 
if that is true, when we get to the floor in just 35 minutes, 
it looks like we're going to be able to proceed without that 
controversy that previously we had known about. So we ought to 
be able to get on to the bill.
    I want to just piggy back on a couple of the points raised 
by the Chairman. The gun running scheme showed tremendous 
vulnerability, especially in 300 airports in the country, and 
lo and behold, only two up to that point, only two, had a 
perimeter security where they had reduced to a handful the 
number of entry points and had the adequate checking of the 
badges to make sure the airport employee was who they said they 
were, as well as checking in machines the stuff that they 
brought in, things that were not done in Atlanta that allowed 
over 100 guns to be transported into the airport. Then the 
employee goes up into the sterile area, into the men's 
restroom, and transfers the weapons to a passenger who has come 
through security.
    Atlanta has now complied, so that's Atlanta, Miami, 
Orlando. What about the rest of the 297 airports nationwide?
    Mr. Neffenger. Senator, I had exactly the same question. It 
was a wake-up call for Atlanta, and, as you noted, they've put 
a lot of measures in place, both the private sector----
    Senator Nelson. But what about the other 297?
    Mr. Neffenger. So earlier this year, I ordered a detailed 
vulnerability assessment across the entire system for those 
other airports that you mentioned. The results of that 
assessment are coming in this month. The purpose of that 
assessment was to answer that very specific question: First and 
foremost, what have you done, but what's the nature of your 
insider population? Who are the employers? What are they doing?
    Senator Nelson. Right. That's the question. What's the 
answer?
    Mr. Neffenger. The answer is that there has been a lot of 
movement in terms of reducing security access points across the 
system. There's been a lot of movement to greatly enhance the 
oversight of that insider population, both by TSA as well as by 
the employers.
    Senator Nelson. A lot of movement. Such as?
    Mr. Neffenger. Well, what I'm going to have to provide to 
you in the report is--once we evaluate all of these that are 
in, then that's going to drive us to add requirements into the 
aviation security, airport security plans, for each of those 
airports to take the best practices that we're finding from 
Miami, from Orlando, from Atlanta and to drive those into the 
other airports across the country. I was concerned that we 
hadn't had a lot of specifics on that.
    Senator Nelson. Mr. Administrator, the best practices are 
obvious. You have to check the airport employees. So is your 
testimony today that nothing has been done?
    Mr. Neffenger. No, sir. That's not my testimony. We have 
done quite a bit. We are checking. TSA itself has increased the 
number of inspections of employees by fivefold just in the past 
5 months, and we do that ourselves, which is consistent----
    Senator Nelson. But you don't have enough resources.
    Mr. Neffenger. And then the airports themselves----
    Senator Nelson. You've got to get the airports to do it.
    Mr. Neffenger. And they are doing that, airport by airport.
    Senator Nelson. Well, then give us the report.
    Mr. Neffenger. That's coming your way, sir, because we're 
evaluating--I wanted to give you good specifics from the 
vulnerability assessments that we conducted so that I could 
give you specific answers airport by airport to exactly the 
question you're asking. And those are all due--this week is the 
deadline for getting those in, and we'll compile that report, 
and we'll get it to the Committee so that you have it.
    Senator Nelson. Why couldn't that have been done in time to 
report to this committee, since that was such an obvious 
question that you were going to be asked?
    Mr. Neffenger. Well, I think the answer I would have to 
that is that I didn't have, I felt, adequate specifics to 
satisfy this committee on the specific measures taken. So 
that's why we went back, and I ordered a very specific 
vulnerability assessment airport by airport. It was done on a 
very short timeframe. It was done in conjunction with the 
recommendations from the Aviation Security Advisory Committee, 
and it was done in a way that ensured that I could give very 
specific answers and, more importantly, provide very specific 
direction with respect to the requirements that we're going to 
put in place.
    That said, we have greatly enhanced the oversight, and 
airports have greatly enhanced their oversight already. So it's 
not as if nothing has been done. I just wanted to know exactly 
what it has been so that we can ensure consistency across the 
entire system.
    Senator Nelson. Mr. Administrator, you have a sterile--
sterling reputation. It's not sterile. It's sterling. You have 
a sterling reputation. But that's an insufficient answer to a 
problem that has been begging now for two years. And the only 
person who's going to get the airports off their duff to limit 
the access into their airports is going to be you and your 
administration.
    Mr. Neffenger. Yes, sir.
    Senator Nelson. And I realize that you can say you have a 
specific jurisdiction of requiring security checks on who's 
going on the plane, but what about the stuff that may be going 
on the plane, which is getting at the same thing? And, 
therefore, you've got to go a different perimeter.
    Mr. Neffenger. And we do that. I'm sorry if I've given the 
impression that nothing is happening. That's not at all true. 
We have greatly enhanced our oversight of cargo screening 
facilities, of the catering facilities. So there are a number 
of measures--quite a few measures that have been put in place. 
I'll provide a specific outline of those for the record.
    [The information referred to follows:]

                     TSA Catering Security Measures
  <bullet>  Catering security measures require inspection of catering 
        carts, materials, and supplies, either prior to being loaded on 
        the aircraft, or prior to be loaded on a sterile delivery 
        vehicle that will service the aircraft.

  <bullet>  At non-U.S. locations, these TSA catering measures are 
        layered on top of measures required by the host government. At 
        certain higher risk locations, TSA requires a more stringent 
        inspection of all catering carts, materials, and supplies, 
        which must be continuously monitored from the time they are 
        assembled for a particular flight until they are loaded onboard 
        the aircraft.

  <bullet>  Any individual performing a TSA-required catering security 
        measure must be either a direct employee or an authorized 
        representative of the air carrier, and cannot be an employee of 
        the catering company.

  <bullet>  Any individual performing any TSA-required catering 
        security measure for a U.S. air carrier must have an airport 
        Security Identification Display Area (SIDA) ID at a U.S. 
        locations, or a Security Restricted Area (SRA) ID at a non-U.S. 
        location. This requirement ensures the individual has received 
        a stringent background check. Additionally, each individual's 
        name must be compared to the most recent No Fly and Selectee 
        Lists.

  <bullet>  Any individual performing any TSA-required catering 
        security measure for a foreign air carrier must have a 10-year 
        employment history check, with the most recent 5 years of 
        employment verified by the foreign air carrier.

  <bullet>  TSA issued a change to the Aircraft Operator Standard 
        Security Program (AOSSP) in August 2015. This change added 
        additional measures that cover provisioning of aircraft with 
        beverages and supplies that come from airline storage areas 
        rather than catering faculties.

  <bullet>  TSA issued an Information Circular (IC) in May of 2016 
        advising all air carriers to implement increased monitoring and 
        oversight of personnel conducting catering security measures to 
        ensure they comply with proper procedure.
                                 ______
                                 
                         Air Cargo 101 Briefing
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

    Mr. Neffenger. But it's oversight of the caterers, the 
catering facilities, and the way in which they inspect the 
catering carts. It's oversight of the cargo, the way in which 
that cargo is inspected, the multiple steps by which we're now 
inspecting cargo that wasn't done before, the amount of 
security perimeter checks that are being done that weren't done 
before, the reduction in the security perimeter entrances into 
each of those airports that are covered by airport security 
plans. So a lot has been done.
    What I was referring to was I wanted to give a very 
specific detail of that to you airport by airport, and I went 
back and asked for much more detail so that I could outline it 
specifically and then move that into the required security 
plans in an official and directed way.
    Senator Nelson. All right. I'll just close, Mr. Chairman, 
by saying this. It's pretty simple. You lessen the number of 
entry points like Atlanta had, over 100, down to a handful, and 
you check the employees going through. You can't do that just 
as TSA. You've got to get the airports to do that, and that's 
the report that we want to see in our oversight capacity.
    Mr. Neffenger. Yes, sir.
    Senator Nelson. How many airports of the 300 following the 
lead of Miami, which did it 10 years ago, have done this, to 
watch so that something like Egypt and the Russian airliner 
doesn't happen here?
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson. I couldn't agree 
more, and I think it points out the need for Senate Bill 2361, 
which I hope we can move. But as you can tell, this is an 
issue; we screen passengers getting on planes, but there are so 
many examples now of airport workers with badges that are 
committing criminal acts, and this is an area that I think 
we've just got to shore up. So thank you, Senator Nelson.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman, and I, too, want to 
add that I hope that with the FAA reauthorization on the floor 
that we will get the Airport Security Enhancement and Oversight 
Act perhaps added to that, because I think it makes a lot of 
sense to do that in light of some of the concerns that we have 
in this committee and the broad support in this committee for 
that bill.
    But I wanted to follow up on this issue as well, on the 
angle of--we know that one of the things that came to light 
that was of deep concern as we thought about the airport 
workforce was that there were 73 individuals that the Inspector 
General had identified with reported--some ties to terrorism or 
issues of concern. And as a result of that, we learned that, in 
fact, TSA was not getting access to the real-time information 
from the Terrorist Identities Datamart Environment, or TIDE, 
data to help inform your vetting of these employees that were 
having access to the airport.
    So I wanted to get an update on where we are in terms of 
you getting access to the information that you need, not only, 
as Senator Nelson has identified, the materials that are being 
brought, to make sure people are inspected, but what 
information you have access to that you know about these 
individuals who have access at the airport that your average 
person doesn't have, obviously.
    Mr. Neffenger. Well, Senator, thank you for the question. 
As I noted earlier, this committee was very supportive in 
asking for that access, and I'm pleased to report that we now 
have access to all of the categories that we need to ensure 
that we're vetting people continuously against those TIDE 
categories. That's allowed us to more effectively screen the 
credentialed population on a daily basis.
    Senator Ayotte. And so that's going smoothly?
    Mr. Neffenger. It is, yes, ma'am.
    Senator Ayotte. Very good. I'm glad to hear that. I wanted 
to ask about a bill that Congress passed in December of 2014. I 
also serve on the Homeland Security Committee, and this bill 
was one that I supported, the Transportation Security 
Acquisition Reform Act. This is legislation that required TSA 
to implement best practices and improve transparency with 
regard to technology acquisition programs, because there have 
been a number of difficulties, challenges, and failed programs 
that haven't come to fruition that prompted Congress to pass 
this bill.
    So I wanted to get an update on where you were in terms of 
greater accountability on TSA's acquisition practices as well 
today.
    Mr. Neffenger. Well, that was a particular interest of mine 
as well when I came in, and I had dealt with acquisition reform 
in the Coast Guard before coming to TSA. So I wanted to pay 
particular attention to the way in which we conducted 
acquisition. One of the first things I did when I came on board 
last July was to ask the Defense Acquisition University to come 
in and do a top to bottom review of our acquisition programs 
and the way in which we conduct them and to look, particularly, 
for any gaps or process improvements that we could make.
    They've just provided that report to me. It took them about 
four and a half months or so to do that. I'm very pleased with 
that report. We're now comparing those requirements against the 
requirements of the Acquisition Reform Act, and we're making 
process improvements as we go.
    What I'd like to do is--I've got a report that we're 
compiling now for the Committee that will show the steps that 
we can take, I think, that will dramatically improve our 
accountability, our oversight, as well as the ability to 
actually field capability when we need it.
    Senator Ayotte. Right. I mean, obviously, that's the key 
because a lot of the work before wasn't fielding capability 
and----
    Mr. Neffenger. Yes, and that's my big concern.
    Senator Ayotte.--and of spending dollars with no result. 
And so I would love for us to receive that report so that we 
can understand where we stand with it and what further action 
that we can support you on to really improve the acquisition 
process, because that's critical as you think about your 
mission and making sure that we have everything functioning 
with our security system.
    I also wanted to just ask about the Managed Inclusion 
issue. As I understand it--and I'm pleased that this has 
happened--you've discontinued Managed Inclusion 2----
    Mr. Neffenger. Yes, I have.
    Senator Ayotte.--which is, I think, very smart and logical 
in light of the purpose of your agency and security concerns. I 
just wanted to follow up that the app that was being used that 
certainly came under some criticism was an app that--I 
understand this app essentially was--some reports that it was 
$1.4 million for using it. So I'm assuming you don't need this 
app anymore now that you've discontinued the Managed Inclusion 
2. ` Mr. Neffenger: We are not using that app.
    Senator Ayotte. Was that one of those which would be an 
example where maybe we shouldn't have purchased that? It seems 
like a waste of dollars to me.
    Mr. Neffenger. Well, I've looked at that, and it wasn't--
there was a lot more involved in that contract. It apparently 
was an IBM contract from 2013, and that covered--that $1.4 
million apparently covered quite a few components or things. So 
the actual app was significantly less costly than that, 
somewhere in the thousands. Nonetheless----
    Senator Ayotte. We didn't need it.
    Mr. Neffenger. Nonetheless, it is not an app we're using 
anymore, and what I will tell you is that I have great concern 
over the way in which we are spending our contracting dollars, 
the way in which we are spending our acquisition money. That's 
why I did a complete review of the acquisition program. I think 
we can build more controls and more process improvements into 
it so that I can get capability out there that is at the lowest 
cost to the taxpayer but actually produces things that we 
really need.
    Senator Ayotte. Well, good. I appreciate your focus on 
this, because to me, this is critical as we think about the 
things we do need to do at our airports that require resources 
and so not to waste resources on things we don't need.
    Mr. Neffenger. I couldn't agree more.
    Senator Ayotte. So I appreciate it. Thank you.
    The Chairman. Thank you, Senator Ayotte.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Neffenger, it's good to see you again. Many of us 
participated in a closed door briefing that you gave us prior 
to the Brussels attack, and I thought it was a pretty poignant 
briefing. I think that even post-Brussels, it probably is 
important, Mr. Chairman, to do another one of those maybe in 
conjunction with Homeland Security or separate as the focus on 
aviation needs to continue.
    I wanted to ask you, Mr. Neffenger--you know, I come from a 
border state, and a lot of traffic moves between the U.S. and 
Canada, and we've always held the position that we have to have 
incredible security. In fact, one of our border agents caught 
the millennial bomber as he was on his way to come to the 
United States to either blow up LAX or whatever his mission 
was. But a Customs border person caught that individual.
    So we're very well aware of security, but we're also very 
poignantly aware of efficiency. We need both. We need both in 
our system, and we know that as a border state because of the 
amount of slowdown. So my point is that Sea-Tac is the fastest 
growing hub in the country and has experienced growth rates of 
7 percent in 2014, and 13 percent in 2015. We've had this map 
of planning for Sea-Tac which was to handle 19 million 
passengers, and last year, we had 42 million passengers. So we 
had a plan for 19, and we just had 42, so we have a problem at 
Sea-Tac.
    My first question to you is, one, will you allow for 
localized regional training? Because part of the issue is with 
this new requirement of TSA officer training systems where 
people are going to--I'm not----
    Mr. Neffenger. To FLETC down at Glynco in Georgia.
    Senator Cantwell. In Georgia. But you've allowed other 
airports to do regional training. Will you allow---- because 
we're about to hit spring and summer, and we have cruise ships 
that greatly impact the flow in the Northwest. Will you allow 
for localized training so that those individuals can be 
trained?
    Second, what information sharing do you think that we now 
need to do? You know that we were successful in getting the 
Cantwell-Collins bill, which is to move Customs border security 
to overseas airports, and that allowed us to do that pre----
    Mr. Neffenger. Preclearance, right.
    Senator Cantwell.--the checking of those passengers over 
there. I'm fully supportive of that, and we're so glad we got 
that into the Customs bill. But now what else do we need to do? 
Are you for the machine reading-sharing, helping those airport 
facilities have better machine capabilities? What lists should 
we share? Do you--I would assume, having a past role in the 
Coast Guard--the Coast Guard's dogs have played a significant 
role in protecting our ferry system. Do you think that we 
should be making a larger investment in that? So that's a lot 
to answer.
    I really do have concerns about this app. I really think 
that you need a coalition of constant input on how to get 
efficiency. You know, paying this much for an app that we 
shouldn't have--but if you'll focus on those first questions.
    Mr. Neffenger. Yes, ma'am. So with respect to the training, 
we are going to do local training. The idea behind----
    Senator Cantwell. At Sea-Tac?
    Mr. Neffenger. At Sea-Tac, yes, ma'am. So we'll address 
that. But we have to mitigate what is going to be a very 
challenging summer season by pushing as many new hires as we 
can into the system, directing them to the airports of greatest 
need--Sea-Tac is one of those--and then ensuring that we're 
working as much as we can with the local airports and the 
airlines that service those airports to identify the most 
efficient means of moving it through. That has to do with 
working with the airlines to understand their travel plan, 
their flight loading----
    Senator Cantwell. Well, thank you for that commitment. That 
is very important to Sea-Tac.
    Mr. Neffenger. So we're going to do that as we build 
capacity in the training center so that we don't have to do 
this in the future. Second, with respect to Seattle, I'll be 
out there, as a matter of fact, next week. I'm going to be 
meeting with the airport director and then local officials as 
well to look at the issues and just see how well this is going. 
So I've been trying to do this with each of the major airports 
around the country.
    With respect to other resources that we might need, it 
really falls into the category of people, training, and 
technology. I'm very interested in the way we do acquisition, 
because I need to evolve my technology faster than the threat 
is evolving, and I think that there are things that we can do 
to ensure that happens.
    Training--I want to continue to build the TSA Academy out 
so that I can effectively train people to do what they do. And 
on the people side, I think we----
    Senator Cantwell. And are you for--just because I only have 
20 seconds. Are you for more list sharing and machine sharing 
with our overseas partners?
    Mr. Neffenger. Yes, ma'am, I am.
    Senator Cantwell. Thank you.
    This is something, Mr. Chairman, I think the Committee 
needs to spend a lot of time on. So thank you.
    The Chairman. Thank you, Senator Cantwell. Good points.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you. We have spent an awful lot of 
time and money and energy focusing on the security of our 
aviation and airports, and I am not critical of that 
whatsoever. But there remains, I believe, a gaping hole in our 
security which has to do with foreign repair stations.
    I don't think most Americans realize--and, by the way, I've 
been talking about this since 2007--Congress wanted FAA, wanted 
TSA to create security rules applicable to foreign repair 
stations. It took 10 years, but we got a rule in 2014. There's 
shared jurisdiction here. FAA is supposed to be certifying the 
safety of the foreign repair stations. You are supposed to be 
certifying and overseeing the security of the foreign repair 
stations.
    I don't think most Americans know that almost every 
domestic plane they're in is cared for, repaired, overhauled in 
foreign repair stations, including foreign repair stations in 
countries that are listed by the State Department as countries 
that can be a haven for terrorists. Now, I don't understand--
since we have been talking about this since 2007, since I came 
to the Senate, chaired a hearing on this in 2007--that the rule 
that you issued didn't even require background checks of people 
who work at foreign repair stations. There's no perimeter 
security at foreign repair stations. There's no alcohol and 
drug testing at foreign repair stations.
    So we've got one standard for machinists and others who 
work on airplanes in the United States, but if you want to take 
those jobs overseas, then all of a sudden, it is like a sieve. 
I am grateful that there has not been an incident, but I can't 
imagine why your agency has not---- and I know you've not been 
there, but I can't imagine why in this rule there would not be 
background checks of people working in countries like Egypt on 
airplanes that are flying American passengers around the world.
    Mr. Neffenger. Well, Senator, I recently spoke to the 
Aircraft Repair Association. They had one of their meetings 
here in the last couple of months. And we talked about the 
rule, and we talked about what we do. Just so you know, all of 
those people hold FAA credentials, which means they're 
automatically vetted by us every day through terrorist 
screening data bases, and we vet them against the criminal data 
bases as well. So we vet them against the combined terrorist 
screening database that looks at all of the people of interest 
and concern around the world, and we vet them against the 
criminal data base.
    Senator McCaskill. Before they're hired? Right now, when 
you're hired as a mechanic on domestic American airlines, and 
you're working on a plane in Egypt, you have a background check 
before you get on the premises?
    Mr. Neffenger. I can't speak to what exactly every 
individual employer does. I can tell you that if you get a 
credential from the FAA or if you apply for a credential from 
the FAA, we're going to screen you before you can get that 
credential, and we'll determine whether or not you can be 
issued that credential. So in my opinion, that is the last step 
before you're actually hired, before you can actually work on 
an aircraft that belongs to a U.S. flight carrier.
    Senator McCaskill. Well, I would be thrilled to be proven 
wrong on this. But it is my impression that you can get into 
these facilities and get near airplanes without a background 
check right now. Who is inspecting these facilities? Who is 
actually physically going to the Philippines and to Egypt and--
--
    Mr. Neffenger. TSA does. We have our aviation inspector 
cadre, and they make regular and periodic rounds to each of 
these locations to ensure that they're complying with the 
standards.
    Senator McCaskill. Well, I would love to see that schedule, 
because I know if you had a repair station in the United 
States, there was an FAA person almost onsite 24/7.
    Mr. Neffenger. That's right, and FAA also does the same.
    Senator McCaskill. And when I did this hearing before, most 
of this was being done by phone. They were not physically going 
to the facilities. So if that has changed, I would be really 
thrilled to hear that. I would love to know how often we're 
inspecting, and I would also like to know--because at the point 
in time that we looked at this before, there was no effort even 
made on perimeter security at these facilities in these other 
countries.
    You know, Americans are pretty upset about jobs going 
overseas. I understand this is a global economy and we can't 
put a gun to companies' heads and say, ``You must keep jobs in 
America.'' On the other hand, if we have certain standards for 
safety and security for our flying public, and the 
responsibility lies with your agency and the FAA to make sure 
that the standards are just as rigorous--you know, without a 
foreign agreement being in the way, they need to be just as 
rigorous in the locations where people are working on these 
airplanes on foreign soil. My sense is that that has not been 
the case.
    So if you've got information that will reassure me in that 
regard as to inspections, the ability of somebody to get on the 
premises and near airplanes, the ability to actually work 
hands-on in an airplane, and if you can reassure me of the 
thoroughness of that--10 years to make the rule was not a 
confidence builder for me. So I would like to be reassured that 
we are in a better place than we were when we started down this 
road when I arrived in the Senate.
    Mr. Neffenger. So let me get you a fuller answer to those 
questions.
    Senator McCaskill. That would be terrific. Thank you very 
much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCaskill.
    Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you to you and the 
ranking member for holding this hearing today, and I want to 
thank the Administrator also for being here and answering our 
questions.
    I want to go back to this allocation of personnel and ask 
you a couple of questions. The first question I have is: When 
was the last time that you flew into the Las Vegas airport?
    Mr. Neffenger. It has not been since I've been 
administrator.
    Senator Heller. Recent, though, within the last couple of 
years?
    Mr. Neffenger. Within the last year.
    Senator Heller. Would you agree with me that it's one of 
the fastest growing and busiest airports in the world?
    Mr. Neffenger. It is a very fast growing airport, and 
you've seen some huge growth in passenger volume.
    Senator Heller. We have. We had 3.4 million passengers go 
through McCarran in February of this year. In fact, it was 
almost a 9 percent growth from February, previously, 2015, and 
we anticipate that we're going to continue to see this growth. 
Can you explain to me why TSA reduced the number of agents at 
that airport by 110?
    Mr. Neffenger. Well, you know, I got that report, and we've 
actually increased the allocation there. So I'm not sure how 
that information got presented. But I went back and checked, 
because I was concerned by the same number, and what I found is 
that we've actually increased the staffing allocation. We've 
not reduced the numbers there. We've had some attrition there 
that we have to backfill, and sometimes it takes us a while to 
get people hired in.
    But let me get you the exact numbers. I think if I laid it 
out, I think I can see why that report was there. But it was 
really that--you know, we have higher attrition rates in some 
locations than I'd like to see, and sometimes it takes time to 
backfill those positions. But I don't believe we've actually 
reduced the numbers there. But let me get you what I show for 
numbers and see if it's the same.
    Senator Heller. If I can ask another question, it was 
promised that it would maintain 10 canine units at that 
airport. Today, there's only one. I think there's one that's 
actually borrowed. But can you explain to me why there's a lack 
of the canine units that were promised to that airport?
    Mr. Neffenger. Well, we have an allocation staffing model 
that we have for canines. I can't meet all of the staffing that 
I'd like to see. I've said before this committee and others of 
Congress that I will take more canine teams because I can put 
them to use. I think it's one of the most effective 
technologies we have out there.
    Where I use them most effectively right now--and Las Vegas 
is one of these locations--is to very effectively move 
passengers through the screening environment. It's one of the 
best tools we have for moving people efficiently through the 
lines. It's what we're trying to do at all of the large 
airports.
    Let me look specifically at Las Vegas with respect to the 
team. I don't have the numbers right off the top of my head. 
I'd like to get back to you with whatever rationale we're using 
currently to deploy teams there.
    Senator Heller. I just want to make sure it was not a 
hollow promise, the 10 canine units.
    Mr. Neffenger. From my perspective, I'd like--as I said, 
I'd like to grow the canine capability across the system, 
because I think it's a hugely effective tool, both for 
detection, but deterrence as well.
    Senator Heller. So if I'm hearing correctly that you 
would--I can go back to the administrators of that particular 
airport and say that those 110 TSA personnel will be backfilled 
or for whatever reason?
    Mr. Neffenger. That is my understanding. But I'll verify 
that----
    Senator Heller. And that they will receive the 10 canine 
units.
    Mr. Neffenger. As I have them available, yes, sir. The 
challenge right now is the availability--is the number of----
    Senator Heller. What would you anticipate would be a 
timeline to get 10 new canines?
    Mr. Neffenger. Well, what we're doing right now--we 
currently have--there are about 1,000 total canines operating 
across the country. About 670 or so of those are deployed to 
local law enforcement. So that means there are about a little 
over 300 teams that the TSA has itself. Of those--when I came 
on board last July, we had only 112 trained to do passenger 
screening. We're converting the rest of those dogs to passenger 
screening.
    We should be up to about 270 or so by the end of this 
fiscal year of converted dogs. These are dogs that can both do 
regular cargo screening and then do the passenger screening. 
I'd like to get all 320 teams converted by the end of the year. 
That will give me the ability to start moving teams back into 
locations that don't currently have them, that are without 
them.
    Senator Heller. What do the majority of those teams do? Do 
they sniff for drugs, or do they sniff for----
    Mr. Neffenger. They're explosive sniffing canines, and 
they're trained to sniff for a large range of explosives. It 
takes about 10 months to train a dog team. But once they're 
trained, they're incredibly effective in what they do. If 
you've noticed them in the airports, they move up and down the 
passenger lines, and they sniff for vapor, and then they trace 
the vapor back to its source.
    Senator Heller. Yes. Thank you for being here.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Heller. There are not many 
places that you can get direct flights from Sioux Falls, South 
Dakota, but one of them is to Vegas. So my constituents were 
adding to that number coming into and out of your airport this 
year.
    Yes?
    Senator McCaskill. Would you give me 1 second to put 
something on the record that clarifies the previous testimony, 
because I'm going to go vote. It's my understanding from 
talking to my staff that has researched this that the only 
certification at the foreign repair stations are supervisors 
and people who have authority to move the aircraft, which is 
only a fraction of the people that are working on these 
aircraft at foreign repair stations.
    My belief is--and you correct me after this hearing if I'm 
wrong, and we'll correct the record. My belief is the vast 
majority of the people working on these airplanes in foreign 
repair stations have not had a background check.
    Mr. Neffenger. I'll follow up with you, Senator.
    Senator McCaskill. Thank you, Administrator.
    The Chairman. Senator Gardner?

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. Thank you both, 
Mr. Chairman and Senator Nelson, for holding this hearing 
today.
    Thank you, Administrator Neffenger, for your time and 
testimony today and the service that you provide to our 
country. I wanted to just ask a couple of questions. I 
understand you were in Denver recently at the international 
airport.
    Mr. Neffenger. I was.
    Senator Gardner. A couple of weeks ago, we received a 
letter from Denver International Airport--my office did--and it 
talks about the attacks in Brussels and underscoring the need 
to address the location of the TSA screening checkpoints at 
Denver International Airport. I think most people have had an 
opportunity to have a final departure from--a destination of 
Denver or have a layover in Denver and understand that this is 
the fifth busiest airport in the country, the 18th busiest in 
the world. So this is a significant concern that they are 
sharing on the screening checkpoints in the great hall at DIA.
    And, Mr. Chairman, I would ask that I be able to submit 
this letter for the record.
    The Chairman. Without objection.
    Senator Gardner. Thank you, Mr. Chairman.
    [The information referred to follows:]

                               Denver International Airport
                                         Denver, CO, March 25, 2016

Hon. Cory Gardner,
United States Senate,
Washington, DC.

Dear Sen. Gardner,

    I am writing to you in the wake of the latest terrorist attack, 
which, once again, targeted an airport. It served as a sobering 
reminder of the threats we face. The attack in Brussels has underscored 
the need to address the location of TSA screening checkpoints in our 
Great Hall at Denver International Airport, the fifth busiest airport 
in America.
    Relocating the checkpoints to reduce the exposure of travelers and 
personnel is this airport's highest priority. TSA--from the local 
Federal Security Director to Administrator Neffenger--shares this same 
resolve. We have been working on plans for our Great Hall for some 
time. The primary motivation for that project is relocation of our 
security screening areas. I am writing to you today to ask for your 
help in obtaining Federal funding for this initiative, and I welcome 
the opportunity to discuss DEN's unique situation.
    We have space where our ticket lobbies are currently located to 
accommodate screening. Doing so would significantly reduce the exposure 
of waiting travelers and TSA personnel. We will need to compress our 
airline ticket counters (into 2/3 of the 6th floor area), relocate the 
TSA operations (into the remaining 1/3), and make major modifications 
to our baggage system to address the relocated baggage ingestion 
points. A more efficient checked baggage screening operation for TSA 
will need to be created by consolidating nine baggage reconciliation 
areas into two.
    Concurrently, TSA has begun its Innovative Task Force Initiative to 
create a new screening experience that improves the passenger 
experience and the security margin. This innovative and collaborative 
approach provides an opportunity to bridge the future of checkpoint 
screening. We are taking the first steps in a public-private 
partnership that can redefine for our Nation how we protect the 
American people from threats to aviation. We have begun planning with 
TSA to have our airport security improvements serve as TSA's initial 
prototype for this new approach. TSA Administrator Neffenger has 
committed his support and we are moving forward to make Denver the 
national prototype.
    He views Denver as a carte blanche opportunity to develop a 
screening process that is more effective, while offering a better 
passenger experience. He is excited to partner with us to develop a 
process that uses his team more effectively to focus on risk, to 
implement new technology to speed up the process, and to improve the 
passenger interaction. The new prototype created in Denver would be a 
model to be emulated across the country.
    This request comes at a time when we are growing; fielding gate 
requests from airlines that are requiring us to expand faster than we 
planned. At the same time, DEN is now 21years old and an aging 
facility. Our capital is being used to replace chillers, runway 
pavement segments, failing escalators while simultaneously expanding 
our concourses, and soon Pena Boulevard. We are not without competing 
needs for capital and that is what makes Federal funding of the 
passenger and baggage screening relocation so necessary.
    We are asking for your help to protect what we have, while allowing 
us to grow. I know we ask a lot of you, but I have never asked you for 
anything more important than this.
    We will be scheduling time with your staff (and of course you if 
you are available) in the next few weeks to discuss this further. 
Hopefully, we will be able to jointly develop a strategy to get this 
important task accomplished. In the meantime, thank you for continued 
support of us and our mission.
            Sincerely,
                                                   Kim Day,
                                           Chief Executive Officer.

    Senator Gardner. I just wanted to talk to you a little bit 
about the Innovation Task Force initiative that's aimed at 
crafting a modernized passenger screening process with the goal 
of improving service and the passenger experience. Last week--I 
believe it was last week--it toured Denver International 
Airport and talked about partnering perhaps with the TSA to 
serve--and Denver International Airport as a prototype--to 
modernize security screening.
    Earlier this week, I had the opportunity to tour the 
facility as well with the management leadership of Denver 
International Airport to learn about the details of the 
proposal. Could you provide a little bit more information on 
TSA's plans with Denver International Airport?
    Mr. Neffenger. Senator, thanks for that question, and we're 
very excited at what we can potentially do there. We're seeing, 
as you know, huge travel volumes right now, and at some point, 
we reach capacity, no matter what we do, with the current 
system. So while we have to address today's problem right now--
and we're working hard to mitigate it, using passenger 
screening canines and pushing staff and saving overtime hours 
and the like--I'm convinced that we need to find a more 
efficient means of moving people through screening, both to 
reduce the pressure outside the checkpoints as well as to 
improve the efficiency, while not changing the effectiveness of 
the program.
    So when Kim Day, the airport director, approached TSA and 
said, ``We'd like to move the passenger screening checkpoints 
from the main hall floor up to what used to be the ticket 
counter area,'' it looked like it presented an opportunity to 
address that. So that initial conversation turned into an 
opportunity to rethink the security environment of the airport 
and, for lack of a better term, think curb-to-gate--what can we 
do?
    It's as simple as just putting automated conveyor belts and 
RFID tags into the bins that you use so that you can more 
effectively track carry-on baggage coming through the system 
and more efficiently move the baggage into the screen--it's 
astonishing how slow the line becomes just because someone has 
to push their stuff down the conveyor belt--presenting multiple 
stations at which you can stand to put your stuff into a bin so 
that you're not just standing behind the guy who wore the 
combat boots today and you're waiting forever to take your 
time. So that's one aspect of it. So there's an evolution that 
has to happen. I mean, we're not going to get to sort of the 
checkpoint of the future right away. But we have an 
opportunity, I think, there.
    So what we did is we worked with the Denver airport to 
bring in the airline partners at that airport so all of the 
airlines that service that airport are members of this team. We 
brought in the manufacturers' teams, as well as even the FAA 
and then local authorities, to put together what we call the 
Innovation Task Force to really do a whiteboard on how you 
would recreate the screening environment to reduce friction to 
the traveler and improve efficiency and effectiveness of the 
system. So in its biggest sense, that's what the idea is, 
recognizing that there are incremental steps to getting there. 
But it gives us an opportunity to try some things, and Denver 
has been very forward-leaning in terms of their willingness to 
pilot some new ideas.
    Senator Gardner. Thank you. And what steps could Congress 
take to assist with the implementation of the Innovative Task 
Force initiative both at DIA and across the country?
    Mr. Neffenger. Well, this committee will get a report on 
what we're doing there, and that's part of the plan, to outline 
the status. There may be some opportunity to create some 
authorities for public-private partnerships that we don't 
currently have, for the ability to do spiral test and 
development of new technologies so that you can feel the 
technology before you go through the long, drawn-out 
acquisition process and to reduce the potential cost penalty on 
the other end to do that.
    So I think that there are some things that we will be 
presenting to you as we learn more about how we might go 
forward that could provide some opportunity to open up some 
pilot legislation that would allow us to try something 
different there that may, in fact, allow us to transform more 
of the system, as we're addressing what is the real problem 
right now.
    Senator Gardner. Thank you. And I think in the visit that I 
was able to take last week to see this entire empty floor space 
that they have as part of the redevelopment of the hotel right 
next to the airport--I think it presents an incredible sort of 
blank slate of opportunity to innovate, to test, to create sort 
of this laboratory of security that we need, really, at a major 
airport, a major U.S. airport, to find the kinds of techniques, 
technologies, and security innovations to really move us 
forward over the next decade and beyond as we see more 
passengers move through the system.
    Mr. Neffenger. Well, I agree, and it's a wonderful 
opportunity, and it solves some very real security problems in 
Denver, and it points to how we could solve those elsewhere as 
well. So we're very excited about that, and we see it as an 
opportunity to do something very different.
    Senator Gardner. Administrator, thank you very much for 
your time.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Administrator, thank you for your testimony here as well, 
and thank you for the work that you do each and every day to 
keep us safe. My question follows up on a comment that you 
made, but something that was troubling to me when I had an 
opportunity to tour one of our large airports in the state of 
Michigan as a potential vulnerability.
    We've talked a great deal about screening airport 
employees, making sure they have security checks, screening 
what they may be bringing in. But a concern is that there is an 
awful lot of material that goes into the airport, into the 
sterile area, for the catering services, the restaurants, the 
newspaper stores--to have a stack of newspapers and put a 
weapon in between a stack of newspapers or whatever it may be. 
My understanding is there is little or no screening of that 
happening, and yet there's a great deal of material going in.
    You mentioned that you are stepping up some of your 
catering security service protocols, I believe, in some earlier 
comments you made during this hearing. Could you give me a 
sense of what is done now, and why have we not done more, given 
the fact that that's a lot of stuff coming in? An employee 
could screen clear and then be waiting for a packet of 
newspapers to come with contraband in the middle of it, 
whatever that contraband may be.
    Mr. Neffenger. There has actually been a lot going on for 
quite some time. The stepping-up piece was adding additional 
layers of that. But all of those items, all of that stuff that 
comes into an airport, all the things you see in the stores in 
the airport are all examined in some manner at some point 
before they enter the sterile area of the airport.
    What I can do is give you some specifics, exactly how--you 
know, how do you inspect newspapers, magazines, water bottles, 
and the like, in addition to the catering and the things that 
find their way onto the aircraft directly. What we've added in 
the past 9 months or so is additional times at which that's 
done and additional randomness associated with how that's done 
so that somebody can't get through a predicted layer of 
screening only to find a way around it later on.
    So what I wanted to do was add a significant amount of 
random unpredictability into the system so that at any given 
moment at any given part of a day, if you're an employee and 
you're handling something, or you have things that you're 
bringing in, that we create an expectation that somebody's 
going to stop and take a look at what you have. So we've done 
that both with TSA personnel as well as with airport security 
personnel and other folks.
    Senator Peters. So you've implemented that now for material 
that's coming in?
    Mr. Neffenger. Right. And we actually have been doing that 
for some number of months now. But that is an ongoing, and that 
will stay ongoing, because we find it to be a useful additional 
measure of uncertainty that you introduce into the system that 
will help us to deter, detect, and disrupt anybody who would 
attempt to do what they did in Atlanta or other places.
    Senator Peters. And the report that you're in the process 
of drafting now--you will address that specifically and whether 
or not it is robust enough in your report?
    Mr. Neffenger. Yes, sir, we will.
    Senator Peters. And your report does--obviously, more 
inspection also has a resource implication, and that may be 
something we have to look at here in Congress.
    Mr. Neffenger. Yes, sir.
    Senator Peters. I appreciate that. I've heard from airports 
in my state that they want to have an opportunity to comment on 
some proposed TSA security regulations or directives before 
they're implemented. It has been their experience, at least 
from what they're telling me, that there's a disconnect between 
TSA officials crafting regulation and then the airports that 
actually have to implement or at least assist you in 
implementing a lot of these regulations.
    They either think that the TSA has taken a one-size-fits-
all approach without regard to different levels of security 
threats that are experienced at different airports and 
different sized airports, or they believe that certain security 
regulations or directives have the effect of assigning TSA 
responsibilities to airports without providing any additional 
funding to those airports, which can be a burden for them.
    To what extent are airports currently able to comment on 
proposed security regulations or directives, and how is that 
feedback taken by your agency, and can we do a better job in 
the future so I don't hear this from my airport managers?
    Mr. Neffenger. I'm going to say yes to all your questions.
    Senator Peters. Good. That's good.
    Mr. Neffenger. Because I do think that we can do a better 
job. I think we have done a better job recently, and I'll speak 
to one example of that. But I think that's a valid complaint. I 
think it's very easy for any government agency to get so 
focused on its mission it forgets some of the impact that the 
discussions have.
    So I like this idea of full collaboration. This is a 
system. My job is to ensure that the system operates 
consistently and in a coordinated fashion. But some of the best 
information about security is held by the people who are 
running the system every day. That's the airports, it's the 
airlines, it's the people who operate in and around those 
airports. It's all those things that come together into an 
airport environment.
    So I'd be very interested in expanding our collaboration. 
The Aviation Security Advisory Committee is a good entry point 
for me on that. They gave me a lot of that criticism when I 
first came on board, and I think it was--from my perspective, I 
take it well, because that's what I'm here to do. I see myself 
as the ultimate public service agency. We're probably the face 
of public service for the government.
    So long story short, when I discussed with Senator Nelson 
the work that we're doing to do the vulnerability assessments, 
we actually worked very collaboratively with the airports and 
the airport associations that represent the airports to craft 
that directive in a way that was implementable, that was 
understandable, and we actually took a lot of their advice in 
terms of how we did that. In fact, the first attempt I put out 
came back at me, and we adjusted accordingly.
    So I think we've made good progress. I think there's a lot 
more we can do. It's a constant challenge to make sure that 
you're including and involving, but that's the approach that I 
like to take.
    Senator Peters. Well, I appreciate that, and I appreciate 
your efforts on that. Thank you so much for your time.
    The Chairman. Thank you, Senator Peters.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Chairman Thune.
    And thank you, Administrator Neffenger, for testifying 
today. It's a pleasure to see you again, as always.
    Mr. Neffenger. Good to see you.
    Senator Daines. Unfortunately, you've not had a quiet nine 
months on the job. Terrorist attacks in Brussels and Paris, I 
think, clearly highlight the vulnerabilities at home. 
Transportation systems will remain a target, and we must remain 
vigilant. So thank you for what you're doing to secure our 
Nation.
    I know many ideas are being discussed to modify TSA's 
practices, to extend perimeters, increase canine presence, 
amongst other proposals. Ultimately, TSA needs to deploy 
resources in a fashion that will maximize our nation's 
security. It also includes protecting rural access points to 
transportation networks. Speaking as somebody from Montana, I 
want to talk a little about rural access points.
    The Screening Partnership Program is an effective way for 
TSA to leverage its limited resources, especially at some of 
our smaller airports. In fact, out of the 21 participating 
airports nationally, nine are actually in Montana. As a 
voluntary program, how does TSA handle airports that may want 
to opt back to TSA screening?
    Mr. Neffenger. Well, you know, they have that option, if 
they'd like to. If an airport is currently under the Screening 
Partnership Program with a private contractor and they wish to 
come back to Federal screening, from my perspective, we have to 
work with them to ensure that that happens. And we try to 
ensure a smooth handoff from contractor to TSA.
    Senator Daines. Yes, and I appreciate that commitment. I 
have an e-mail from the Montana Department of Transportation. 
At the Butte airport, they formally requested to go back to TSA 
screening. And the response we got back from TSA was that 
passenger screening would cease at Butte. Reverse screening 
would be conducted upon arrival at Salt Lake. So I think they 
were questioning how would eliminating screening at a 
commercial airport actually increase the safety of the national 
airspace.
    Mr. Neffenger. So let me look at that, and I apologize for 
not having that information in front of me.
    Senator Daines. And I think they're starting to get some 
verbal commitments now, because they pushed back strong on that 
recommendation. But I want to get your commitment to ensure 
that whether they're TSA or SPP, we can always maintain the 
level of security at these rural airports.
    Mr. Neffenger, in 2013, the Inspector General reported that 
the nearly $900 million spent on screening of passengers by 
observation techniques, the SPOT program, was unsuccessful. I 
recognize this was before your time on the job, and, again, I'm 
grateful that you're in this job and working to secure our 
Nation as well as spend our dollars efficiently.
    Last month, the GAO reported cost-saving opportunities in 
the canine program. Three days ago, we read about TSA spending 
over $300,000 on a randomizer iPad to tell passengers which 
lane to stand in, left or right. How is TSA reforming to be 
good stewards and gain the taxpayers' trust?
    Mr. Neffenger. Those are good questions and the exact 
questions I've been asking since I came on board. With respect 
to that randomizer app, that was part of a larger contract so 
that not all of that was spent on a randomizer. But, 
nonetheless, it points to some need for oversight.
    So a couple of things we've done. One of the first things I 
did after coming on board was to look at our acquisition 
program, and I brought in an outside independent agency, the 
Defense Acquisition University, just to look top to bottom and 
tell me if they saw any gaps, and process improvements that we 
needed, and so forth. My concern is best capability at lowest 
price and then best value to the taxpayer.
    So that's one of the things we're doing, and we're working 
very hard on improving our oversight, our controls, and the 
like. And I'm looking across every contract that we have to 
ensure that the contract is appropriate, that the money is 
going to what we think it is, that it's actually providing the 
capability that we're asking for. So I think that's very 
important, because it's about making sure that we take the 
limited resources we have and get some results for it.
    Senator Daines. Thanks for that very granular review that 
you're leading the efforts on. It's appreciated.
    As you know, our security is as strong as our weakest link. 
Enhancements at rural airports strengthen security of the 
entire national airspace. You know, the bad guys are going to 
find the weak places to come in. At your confirmation hearing, 
I asked about the AIT scanners that were to be installed in 
2012, and Montana airports are still without them. In response, 
you committed to evaluate plans to deploy the scanners. This is 
a specific question to Montana, but, again, we're as good as 
our weakest link.
    Do you know what the status is of procuring this necessary 
security equipment for airports in Montana that don't have 
them?
    Mr. Neffenger. This is a problem, as you know, across the 
system. We don't have advanced imaging machines at all in the 
small airports that I'd like to see them in. So from my 
perspective, I'd like to see them deployed 100 percent across 
the system. It's really a funding issue at this point.
    So the first thing I had to do was look at where we were on 
funding, what our current procurement schedule was, and what 
the deployment schedule was for those. That includes upgrading 
to the current software technology on board and making sure 
that they meet our standards.
    So we put together a technology plan. It's a 5-year plan 
for getting those on board. If I could accelerate that plan, 
depending upon how we can redeploy our resources--part of the 
reason for doing the acquisition study was to determine whether 
we had funding internally that we could reallocate to a greater 
need such as AIT machines.
    Senator Daines. There are two, specifically, and they're 
two important communities in our state. One is Helena, which is 
our state capital, that airport. They've been waiting for 4 
years for the deployment of the technology.
    The second is Great Falls. Let me highlight the importance 
of Great Falls. The Malmstrom Air Force Base is in Great Falls. 
That is where we control one-third of the nation's ICBMs. We 
make sure a lot of our security processes are hardened for 
obvious reasons.
    But those would be two airports that have been waiting for 
4 years, our state's capital as well as Great Falls, again, the 
front door entrance to our ICBM capabilities here for the 
country. So I'd appreciate it if you'd look at that and let us 
know how that looks.
    Mr. Neffenger. Yes, sir. Will do.
    Senator Daines. OK. Thank you very much.
    The Chairman. Thank you, Senator Daines.
    Senator Nelson, I think, has another question, and then we 
may have a couple of members returning from the vote on the 
floor.
    So, Senator Nelson?
    Senator Nelson. Mr. Administrator, some real promise is 
being made by government scientists at NIST. They're working on 
a new detection system that mimics a dog's nose, dogs being so 
effective in this attempt that is the bottom line for your 
agency. So what do you see as the possible future of the use of 
such systems that mimic a dog's nose?
    Mr. Neffenger. If they can be effective, I think it would 
be wonderful. I know that they're a long way from deploying a 
system like that. We're aware of that. In fact, we have some of 
our folks working with those scientists to see what's the 
nature of its capability. So I think what it shows us is that 
we have to be thinking about the future of screening, because 
you have to continually evolve the technology that we have.
    So I'm a big fan of that, and I think we need to do that, 
and then wherever possible, pilot it in limited controlled 
situations to determine whether it actually works in the real-
world environment. So I'm intrigued by it. I think there's some 
potential there. If it works, it could perhaps significantly 
augment our capability that we currently have.
    Senator Nelson. Do you know any of the data and the science 
behind this device?
    Mr. Neffenger. I know a little bit of it, but not enough to 
not get myself in trouble if I try to speak about it publicly. 
But I can promise you a deeper dye for the record on that.
    [The information referred to follows:]

    The NIST dog's nose project was an effort to enhance explosives 
trace detection (ETD) capabilities by emulating the air flow in a dog's 
nose thereby potentially improving sensitivity in ETDs. This was an 
exploratory scientific study and not an effort to develop an improved 
ETD for TSA operational use. In short, the NIST researchers did a 3D x-
ray scan of a dog's nose then built a 3-D printed model of the canine 
nose so that they could model and test the air flow through the canine 
nose.

    Senator Nelson. We'll ask the Administrator at NIST as 
well.
    Mr. Neffenger. OK.
    The Chairman. Over and out? All right. Well, we don't have 
any further questions. Unless somebody breaks through the door 
momentarily, I think we may be off the hook.
    But, Admiral, thank you for your time and for your 
responsiveness. We will have some questions for the record that 
we'll follow up with and ask that members who do want to submit 
questions for the record do that within 2 weeks and that you be 
as responsive as you can in getting back on those.
    Mr. Neffenger. Yes, sir.
    The Chairman. We'll look forward to continuing the 
discussion. These are issues, of course, that are of great 
importance to our country, our national security, our homeland 
security. You have an enormous responsibility, but we want to 
support you in every way that we can and make sure that we get 
the job done right. So thank you for being here today.
    With that, this hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]

                            A P P E N D I X

            Prepared Statement of Hon. Richard Blumenthal, 
                     U.S. Senator from Connecticut
    I thank the Committee for having this important hearing.
    Many members of this committee have raised grave concerns about the 
terror attacks in Brussels on March 22. Those horrendous events took 
place at the Brussels airport--which has been widely covered--but also 
at a Brussels subway station. In light of these attacks, I want to note 
several things.
    First, it is critical we remember the importance of our surface 
transportation system in the context of any discussion on security. The 
Commission investigating 9/11 urged us to vigilantly protect the 
``neglected parts of our transportation security system'' like and rail 
and transit--just as much as we protect aviation. Our country's public 
transportation and passenger rail systems are used by tens of millions 
of people every day. They carry nearly five times as many people per 
day as our airlines do. Penn Station in New York City handles half a 
million passengers a day--making it busier than all three New York City 
regional airports combined, and the busiest transportation hub in our 
country. It is imperative that we ensure that rail and transit systems 
are safe and secure for all who rely on them. That much is clear after 
major attacks in London, Madrid, Moscow and now Brussels. We need to 
ensure we're protecting our surface transportation network--and that 
includes freight and ports--as vigorously as our skies.
    Second, it is clear we need to work to shore up any ``soft'' 
targets. This is clearly a vulnerability that existed in Brussels, and 
to the extent such targets exist here at home we need to do everything 
we can to ensure our homeland security and transportation officials and 
first responders have the resources necessary to plan for and prevent 
such terrorism from being carried out in a similar way on our shores. 
I'm proud to have joined several of my colleagues to advance such a 
measure in the pending FAA legislation--providing airports with more 
resources to make us safer.
    Finally, it is also evident that providing security here and abroad 
is an ongoing and evolving process. We must be on the lookout and work 
vigorously to detect and deter threats to every transportation mode. As 
we learn more about the Brussels attacks, I look forward to working 
with my colleagues to find any other solutions toward protecting 
passengers and freight.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                          Hon. Peter Neffenger
    Question 1. As you may know, my SAFE PIPES Act, which passed the 
Senate unanimously earlier last month, included provisions to require 
GAO to assess and report on TSA's pipeline security programs. In 2007, 
officials thwarted an attempt to attack aviation fuel pipelines at JFK 
International Airport in New York. Do you have staff in the field, and 
how often does TSA connect with companies to review security plans?
    Answer. Yes, onsite field reviews are conducted on pipelines by 
Transportation Security Administration (TSA) personnel. Additionally, 
TSA maintains field personnel assigned as Transportation Security 
Inspectors and to Visible Intermodal Protection and Response teams.
    Employing a risk-based approach, TSA has reviewed the security 
plans of the operators of all of the Nation's most critical pipeline 
systems through its Corporate Security Review (CSR) program. Each 
Fiscal Year, TSA's goal is to conduct ten CSRs on pipeline companies 
operating multiple critical systems to review their corporate security 
plans. Additionally, facility security measures and plans are reviewed 
as part of TSA's Critical Facility Security Review (CFSR) effort. TSA's 
goal is to conduct 40 CFSRs each Fiscal Year.

    Question 2. Do you believe TSA should dedicate more resources 
towards pipeline security as opposed to other modes?
    Answer. TSA constantly evaluates the threats and vulnerabilities of 
all transportation modes. TSA believes that pipeline and the other 
surface modes are appropriately funded.

    Question 3. As a follow up, in your testimony you mentioned strong 
coordination between the pipeline industry and TSA on security measures 
(page 11). What events or initiatives do you believe have led to 
stronger collaboration with pipeline operators? How could similar 
approaches be applied to other transportation entities, such as ports 
or railroads?
    Answer. TSA has undertaken a number of initiatives in the pipeline 
mode that have led to a highly effective public-private partnership. 
Close coordination with the Pipeline Sector Coordinating Council, 
information sharing activities such as monthly pipeline stakeholder 
conference calls and the International Pipeline Security Forum, and 
full engagement with industry representatives in developing the 
Pipeline Security Guidelines are some of the initiatives resulting from 
effective collaboration between TSA and pipeline operators.
    TSA conducts similar industry engagement activities for the other 
transportation modes tailored to the needs of that industry. For 
example, each mode has a Sector Coordinating Council, conducts monthly 
information sharing teleconferences, disseminates Security Awareness 
Messages, participates in Intermodal Security Training and Exercise 
Program (I-STEP) table-top exercises and I-STEP regional surface 
transportation workshops.

    Question 4. As you mentioned in your testimony, TSA is in the 
process of updating security guidelines for pipeline owners and 
operators (page 12). When do you expect the guidance to be completed? 
What kind of updates do you expect to see?
    Answer. The review and update process for the TSA Pipeline Security 
Guidelines has been initiated. The revision effort will be accomplished 
with the full participation of TSA's government partners, pipeline 
industry owners and operators, pipeline trade associations, and other 
interested parties. TSA's goal is to complete the update to the 
Guidelines by the end of the calendar year 2016.
    The primary area of revision will likely be to the cybersecurity 
section of the Guidelines. The focus of this part of the revision will 
be to ensure the provisions of the Pipeline Security Guidelines are 
consistent with the National Institute of Standards and Technology 
Framework for Improving Critical Infrastructure Cybersecurity. 
Additional revisions are possible in the listing of facility physical 
security measures.

    Question 5. Admiral Neffenger, what is the message you would like 
to send to the American flying public and mass transit riders in the 
aftermath of the horrific Brussels terror attacks? Would you also share 
with us some of the additional work that TSA is doing to strengthen 
security on our public and commercial transportation systems?
    Answer. The attacks in Brussels remind us that terrorists remain 
intent on attacking transportation systems. Although there is no 
credible intelligence of any plot to conduct similar attacks here in 
the United States, the Transportation Security Administration (TSA) is 
working diligently to make travel as safe and secure as possible. With 
an unprecedentedly high volume summer travel period around the corner, 
TSA will continue to deploy measures to enhance the security on the 
public sides of airports.
    Following the attack, TSA immediately deployed additional security 
at airports in the United States, and at various rail and transit 
stations throughout the country. These efforts included enhanced 
Visible Intermodal Prevention and Response (VIPR) teams' presence in 
and around checkpoints and public areas nationwide, and working closely 
with state and local law enforcement, airport and transit authorities, 
and the aviation industry in order to augment security measures 
nationwide.
    In addition, TSA has implemented more safety and security efforts 
following the November 1, 2013 shooting at Los Angeles International 
Airport, including: mandated active shooter training and required 
practical training exercises for all TSA employees; installation of 
duress alarms at checkpoints where gaps were identified; adoption of 
standards for law enforcement officer presence at checkpoints and 
ticket counters during peak travel times for airports that do not 
presently employ a fixed post plan; established minimum recommended 
standards for airport operators to conduct bi-annual active shooter 
training and exercises; and explicitly incorporated maximum response 
times in all Airport Security Programs utilizing flexible response 
options.
    Additionally, while there is no specific, credible terrorist threat 
to the U.S. passenger rail or public transportation systems, the recent 
Brussels attacks underscore the need to continue to build upon our 
surface transportation successes through stakeholder communication, 
coordination, and collaboration. Within public transportation systems, 
TSA engages with state and local partners to identify ways to assess 
risk, reduce vulnerabilities, and improve security efforts through the 
Baseline Assessment for Security Enhancement program. These assessments 
are emphasized on the Nation's 100 largest mass transit and passenger 
railroad systems measured by passenger volume, which account for over 
95 percent of all users of public transportation.
    Since Fiscal Year (FY) 2008, TSA has conducted over 105 security 
exercises within all surface modes through the Intermodal Security 
Training and Exercise Program (I-STEP), including eight conducted so 
far this Fiscal Year. TSA facilitates I-STEP exercises across public 
and commercial transportation systems to help entities test and 
evaluate their security plans, including prevention and preparedness 
capabilities, ability to respond to threats, and cooperation with first 
responders from other entities.
    Between FY 2006 and FY 2015, over $2.3 billion in transportation 
security grant funding was awarded to freight railroad carriers and 
operators, over-the-road bus operators, the trucking community, and 
public mass transit owners and operators, including Amtrak. These 
grants were awarded to assist entities and their dedicated law 
enforcement providers in enhancing security through operational 
activities such as counterterrorism teams, mobile screening teams, 
explosive detection canine teams, training, drills and exercises and 
public awareness campaigns.

    Question 6. I understand that some transportation facilities would 
like to use TWIC as part of their security plans. What do you think 
about the voluntary use of TWIC for other modes of transportation, such 
as pipelines, for facility security plans?
    Answer. Since the introduction of the Transportation Worker 
Identification Credential (TWIC), TSA has had suggestions from 
transportation stakeholders that TWIC could serve as a trusted and 
valuable security credential well beyond its statutory maritime 
origins. In recent months some within the surface transportation 
industries such as pipeline companies and explosive manufacturers, have 
renewed their interest in having employees undergo the vetting 
associated with the TWIC program.
    However, absent a statutory mandate for specified workers to 
undergo a security threat assessment, the Transportation Security 
Administration (TSA) and employers face limitations on requiring such 
workers to undergo TSA vetting. From an institutional standpoint, TSA 
would welcome the vetting of more professionals in the transportation 
system. Just as the TSA Pre3 program has done for aviation travelers, 
vetting additional transportation workers would increase the level of 
confidence and decrease TSA's concern about insider threats. TSA 
continues to discuss these issues with stakeholders, and will do 
whatever it can to meet the best security needs of stakeholders and the 
Nation.

    Question 7. During your confirmation hearing last year, you 
mentioned that evolving threats to our transportation systems is one of 
the top three challenges facing the TSA today. Given the fact that DHS 
IG John Roth, has previously expressed concern with TSA's ability to 
meet these challenges as a result of deficiencies in workforce 
integrity and management oversight, how have you in the last year, 
tackled existing weaknesses in TSA's security mission in order to 
address these evolving security threats?
    Answer. TSA's intelligence and information analysis and 
dissemination has been an integral driver in the development of 
employable countermeasures to evolving security threats. This 
information-driven focus on mission is a primary centerpiece of TSA's 
response to the covert testing failures as well as TSA's response to 
2015 and 2016 attacks against aviation in Egypt, Somalia, and, most 
recently, Brussels. TSA's focus on mission activities include 
retraining the entire workforce, correcting security processes and 
procedures, improving technology capabilities, and analyzing systemic 
issues to ensure past deficiencies are not repeated while remaining 
agile enough to quickly identify and address new security gaps as they 
develop.

    Question 8. How has the TSA assessed the threats and adapted 
accordingly, especially in response to recent events in Brussels?
    Answer. The Transportation Security Administration (TSA) has 
analyzed the terrorist network, tactics, and techniques used in the 
recent attacks in Brussels. In analyzing the terrorist networks 
involved to improve attack detection and warning, TSA's Office of 
Intelligence and Analysis (OIA) has developed advanced analytical 
capabilities that have proven very effective in identifying networks of 
individuals linked to terrorist operations. OIA has also played a 
pivotal role in alerting the intelligence and security community to 
emerging aviation events through the monitoring of its social media 
software to provide real-time situational awareness of events. In 
countering the myriad threats, TSA's intelligence, information 
analysis, and dissemination has been an integral driver in the 
development of employable countermeasures. This is not limited to only 
detecting insider threat actors but also disseminating vital 
information on how attacks (successful and failed) were conducted so 
TSA operations can deploy the most impactful counterterrorism and 
security capabilities. Of particular importance, in light of the recent 
insider gun-smuggling incident in Atlanta and the possible insider 
assistance in the downing of the MetroJet in Egypt, are TSA's efforts 
to counter the insider threat posed by employees with privileged access 
to transportation facilities and infrastructure. Working in 
collaboration with stakeholders, including the Aviation Security 
Advisory Committee, TSA has taken a number of actions to enhance 
security by reducing the insider threat: requiring more frequent 
criminal history records checks of aviation workers; piloting the 
Federal Bureau of Investigation's (FBI) Next Generation of 
Identification (NGI) Rap-Back Service (which provides continuous 
vetting of aviation workers through a fingerprint-based database); and 
conducting a nationwide vulnerability assessment; airport-by-airport, 
to create an expectation that every employee could be stopped and 
inspected.
    In addition to these actions, TSA works with federal, state, local 
and tribal partners to provide a law enforcement presence throughout 
airports and surface transportation hubs across the nation, deploying 
Visible Intermodal Prevention and Response (VIPR) teams. These teams 
use TSA assets in coordination with local law enforcement and 
stakeholders to patrol public areas and to provide a visible deterrent 
and response capability.
    TSA's intelligence-driven security operations also assist to 
improve the security of international inbound travel. TSA's Office of 
Global Strategies works with international partners to assess and 
mitigate threats to passenger and cargo flights at last point of 
departure airports bound for the United States. TSA also promotes 
continued information sharing and aligning of security standards with 
its international counterparts as it relates to global threats to 
aviation.

    Question 9. TSA serves as the principle force in making sure 
travelers and their luggage are properly screened prior to embarking, 
and that passengers travel from point A to point B safely. What are 
some of the current screening methods in the vetting process for TSA 
employees that ensure that those responsible for maintaining security, 
are in fact, not a security risk themselves?
    Answer. The Transportation Security Administration (TSA) Personnel 
Security Section conducts Enter on Duty Determinations prior to 
beginning work and Final Fitness Determinations for continued 
employment on all populations. All of the actions directed in the 
Secretary's 10-Point Plan are currently on-schedule or completed. TSA 
corrected numerous immediate problems revealed by the covert testing. 
TSA established a more aggressive training plan and retrained the 
entire workforce with focused Mission Essentials. TSA has completed two 
rounds of Mission Essentials and is currently executing Mission 
Essentials III, which will last through the summer. TSA also 
implemented rapid improvement events for its screening equipment to 
include development of improved detection algorithms. All standard 
operating procedures were rewritten to reduce and focus checkpoint 
operations, and the Administrator's Intent was released to ensure the 
organization's main effort remains its transportation security mission.
    TSA's Enter on Duty and Fitness Determinations are an initial 
review of the applicant's credit, fingerprint record, and electronic 
Questionnaire for Investigation Processing and other required elements. 
A favorable determination of these factors affords a risk based 
decision allowing the Federal employee/applicant to commence work 
before the required background investigation is completed.
    Title 49 of the U.S. Code establishes vetting criteria under which 
any one of 28 convictions automatically disqualifies an applicant 
hiring. In addition, Department of Homeland Security, Chief Security 
Officer Memorandum dated March 10, 2009, states that applicants who 
have one or both of the following will not be offered employment: (1) 
Cumulative ``bad debt'' over $7,500, or (2) Any amount of outstanding 
debt associated with a Federal, State, or local tax lien, delinquent 
student loans, delinquent child support payments, or unsatisfied court 
judgment(s). Individuals receiving an unfavorable determination are 
notified of such, provided the details of the finding, and afforded the 
opportunity to respond to the decision.
    TSA has implemented a recurrent vetting program for all employees, 
which includes conducting fingerprint-based criminal history record 
checks on an annual basis to detect criminal activity that may not have 
been self-reported or disclosed as well as recurrent checks against the 
Terrorist Watch List. TSA also has initiated the Federal Bureau of 
Investigation's (FBI) Next Generation of Identification (NGI) Rap-Back 
Services pilot program at two major airports and with one major 
airline, whereby aviation workers are continuously vetted through a 
fingerprint-based database.
    TSA's Final Adjudication is the resolution of the completed 
background investigation conducted by the Office of Personnel 
Management (OPM). Using Federal and OPM standards for employment 
suitability, fitness, and security clearance eligibility, a favorable 
adjudication would allow continued employment and access to classified 
information.

    Question 10. Following the terrorist attack at Brussels Airport, 
how is TSA mitigating the security vulnerability associated with long 
lines of passengers waiting to be screened at security checkpoints?
    Answer. First and foremost, the Transportation Security 
Administration (TSA) has made it a priority to deploy measures to 
mitigate passenger volume at checkpoints while maintaining our security 
effectiveness. TSA has established four lines of effort focused on 
maximizing workforce resources: hiring and training to full staffing 
levels; partnering with key stakeholders; and expanding TSA Pre3 
enrollment in order to mitigate operational impacts over the summer 
travel period. Specific efforts include: conserving and strategically 
distributing overtime budgets; utilizing additional overtime funding to 
support peak operations; seeking Congressional concurrence to 
reallocate funding from within TSA to support additional staffing; 
aligning and managing staffing to passenger volume; optimizing canine 
resources; and hiring and training at an aggressive pace to ensure that 
increased staffing levels are reached and maintained for the summer 
travel period.
    During times of heavy passenger volume, TSA has additional measures 
in place to screen passengers waiting in the queue. For example, canine 
teams are able to screen passengers in the queue for explosives. 
Additionally, Behavior Detection Officers are trained to observe 
passengers for suspicious behaviors in line and throughout the public 
areas of airports. If these behaviors are observed, law enforcement is 
notified for resolution.
    Further, following the Brussels attacks, TSA enhanced its Visible 
Intermodal Prevention and Response presence in and around checkpoints 
and public areas nationwide. TSA works closely with state and local law 
enforcement, airport authorities, and the aviation industry in order to 
augment these types of security measures.

    Question 11. Florida is a gateway to the U.S. for visitors from all 
over the world and one of America's favorite destinations for family 
vacations. Many of these travelers are first time flyers and currently 
our airports are experiencing double digit growth. It seems like the 
staffing levels are not keeping up with our growth--our security lines 
are backing up and creating havoc in our airports. Aside from the 
current staffing model, what other resources and technology is your 
agency looking to leverage to better manage passenger processing and 
wait times to better address efficiency for passengers while at the 
same time mitigating national security threats? Has TSA solicited input 
from airports and airlines on ways to increase the efficiency of the 
screening process, again, to better address efficiency for passengers 
while at the same time mitigating national security threats?
    Answer. The Transportation Security Administration (TSA) is working 
with airline and airport stakeholders to address the wait time issue 
without sacrificing security effectiveness. On April 8, TSA hosted the 
Chief Operating Officers from the top seven airlines (United, Delta, 
American, Southwest, Alaska, JetBlue, and Hawaiian) to collaboratively 
understand the threat and TSA volume initiatives, and to develop a 
joint mitigation plan for summer volume. Additionally, TSA is 
collaborating with airports and airlines to support non-security 
screening operations, such as returning bins to the front of waiting 
lines, and other non-security related tasks. TSA has formed 
Optimization Teams and closely partnered with airlines, airport 
authorities, and industry to deliver these types of innovative 
measures. TSA is working with the aviation industry to develop airport-
specific actions plans for the Nation's busiest airports.
    TSA understands that travel is an important economic driver in the 
State of Florida, and we have taken action to mitigate summer volume 
issues as much as possible. For example, Miami International Airport 
(MIA) is receiving approximately 50 additional new employees, which 
they hope to have in place by July. MIA has been authorized to conduct 
local training to more quickly onboard the new employees. TSA has also 
increased the amount of overtime available to employees at MIA to more 
fully staff checkpoints during peak travel times.
    Additionally, TSA continues to implement four lines of effort 
focused on maximizing workforce resources: hiring and training to 
maximum staffing levels, partnering with key stakeholders, and 
expanding TSA Pre3 enrollment in order to mitigate operational impacts 
over the summer travel period. Specific efforts include: conserving and 
strategically distributing overtime budgets, utilizing additional 
overtime funding to support peak operations, seeking Congressional 
concurrence to reallocate funding from within TSA to support additional 
screener resources, aligning and managing staffing to passenger volume, 
optimizing canine resources, and hiring and training at an aggressive 
pace to ensure that full staffing levels are reached and maintained for 
the summer travel period.
    For the longer term, TSA is also evaluating the current 
technologies available and identifying viable solutions, such as 
automated bin return systems, multi-station divesting, and other 
technologies, which may increase checkpoint effectiveness and 
efficiency. TSA looks forward to working with industry partners to 
strengthen security, increase operational efficiency, and improve the 
passenger experience.

    Question 12. Rather than sending all new hires to the Federal Law 
Enforcement Training Center (FLETC) in Georgia, does TSA plan to permit 
local training of Transportation Security Officers at their assigned 
airports during the busy summer travel season?
    Answer. The Transportation Security Administration (TSA) remains 
committed to the centralized delivery of training for all newly hired 
Transportation Security Officers (TSOs) at the TSA Academy, located at 
the Federal Law Enforcement Training Center in Georgia, as a long-term 
strategic objective. However, TSA recognizes that the record passenger 
volume anticipated for the upcoming peak summer travel period requires 
some flexibility. Therefore, TSA has authorized a limited number of 
local new hire training classes for those airports with the greatest 
need for additional staff. Simultaneously, TSA will continue to deliver 
its new hire training at the TSA Academy to ensure that the maximum 
numbers of new hire TSOs are trained. The airports conducting local new 
hire training are:

  <bullet> Denver International Airport

  <bullet> LaGuardia International Airport

  <bullet> Detroit Wayne County International Airport

  <bullet> Seattle-Tacoma International Airport

  <bullet> Boston Logan International Airport

  <bullet> Chicago-O'Hare International Airport

  <bullet> Miami International Airport

  <bullet> Honolulu International Airport

  <bullet> JFK International Airport

  <bullet> Las Vegas International Airport

  <bullet> Chicago-Midway International Airport

  <bullet> Los Angeles International Airport

  <bullet> Newark-Liberty International Airport

  <bullet> Guam International Airport

  <bullet> Kona International Airport

  <bullet> Kahului Airport

  <bullet> Lihue International Airport

  <bullet> John Wayne (Santa Ana) Airport

  <bullet> Burbank International Airport

    In some cases, new hire classes have been consolidated for 
neighboring airports (for example, Los Angeles and Burbank candidates 
are attending the same new hire classes). TSA expects to have these 
classes complete with 768 locally trained new hire employees in place 
by the end of June.

    Question 13. As you know, the Aviation and Transportation Security 
Act of 2001 required that airports invest in explosive detections 
system (EDS) security equipment, with the understanding that TSA would 
provide reimbursement for airports that complied. While the specific 
circumstances vary, in each instance the airports shouldered the 
financial burden with the expectation they would be reimbursed for up 
to 90 or 95 percent of the allowable costs. More than fifteen years 
later, airports across the country remain burdened by the debt incurred 
from these purchases, and as a result are unable to invest in other 
important projects. Follow up. In the FY 2016 Omnibus Appropriations 
legislation, Congress included a provision directing TSA to develop a 
process to review and validate reimbursement claims from airports for 
in-line baggage screening systems installed prior to 2008 and to submit 
a plan, not later than 60 days after the date of enactment of the Act, 
for reimbursement of validated claims. What is the status of this plan? 
Follow up. It is my understanding that the Department's FY 2017 budget 
request did not include sufficient funding for creating a reimbursement 
plan. Why wasn't this funding request included? Follow up. Can you 
ensure that any future reimbursement plan will not negatively impact 
other national security priorities?
    Answer. The Transportation Security Administration (TSA) is 
currently developing a reimbursement review and validation plan for the 
In-Line Baggage Systems constructed without a funding agreement with 
the government, as directed by legislation. If the plan is initiated, 
TSA estimates a time-frame of up to nine months from receipt of airport 
documentation to validate the project cost information and the claim 
for reasonable expectation of reimbursement. Future requests for 
funding for this plan will be made in concert with the development of 
annual budget requests.
    In compliance with the requirements established in the 9/11 Act, 
TSA prioritizes limited available funding for TSA projects according to 
the strength of their contribution towards fulfilling the agency's 
mission to protect the Nation's transportation systems. Funding is 
allocated within this schedule based on the project's security and 
operational benefit, the reduction of risk, and the availability of 
funds. TSA has created a funding prioritization schedule for mission 
critical projects, while ensuring core functions and prior commitments 
are sufficiently funded as the primary driver.

    Question 14. Due to a combination of factors, such as long hang-
time and inefficient security screening thru-put, operational costs for 
air carriers at small airports in Montana and throughout the Nation are 
quite high. These high costs make it difficult for small airports to 
attract and retain air service, leading to an overall decline in 
accessibility and customer service. Given the existing issues of 
maintaining cost-effective air service and sufficient security 
screening, what efforts are being taken to account for the additional 
costs of implementing 100 percent employee screening, when resources at 
small airports are already spread thin?
    Answer. Currently, the Transportation Security Administration (TSA) 
has not implemented a requirement for 100-percent employee screening at 
any airport, large or small. However, TSA has issued guidance to 
airports that employee screening protocols should put employees on 
notice that on any given day, any one of them may be subjected to an 
inspection.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. Peter Neffenger
    Question 1. At the Minneapolis-St. Paul International Airport, the 
security line at peak travel times took an average of 45 minutes and 
people were missing their flights. The issues that contributed to this 
long wait time were multifaceted: an increase in travel volume, the 
consolidated lines at the North Terminal, and training of screeners and 
K-9 units. Given the increase in volume and the necessary increase in 
security protocols after the findings of the IG report, how is TSA 
adapting to ensure that passengers can safely and efficiently go 
through screening processes?
    Answer. We have made significant changes to our operations at MSP, 
and we are seeing results. We filled two additional passenger screening 
canine team vacancies in March, bringing their total allocation to six 
teams. We have also adjusted our staffing levels during peak times, 
converted frontline Transportation Security Officers from part-time to 
full-time, authorized additional overtime, and appropriately limited 
the number of staff on annual leave during the peak travel season. We 
have also given the Federal Security Director the flexibility to use 
Behavior Detection Officers to perform other screening functions.
    Nationwide, in concert with the Transportation Security 
Administration's (TSA) main focus on maintaining security effectiveness 
and resolving all alarms at the checkpoint, a wide variety of 
initiatives have been undertaken so that passengers can safely and 
efficiently transit the screening process. These initiatives include:

  <bullet> Hiring and training additional Transportation Security 
        Officers (TSO) at an aggressive pace to staff the Nation's 
        busiest airports.

  <bullet> Optimizing the use of overtime hours, so that more of the 
        TSA's budgeted overtime for TSOs is available this summer. TSA 
        will realign funds from within TSA in order to increase the 
        resources available for summer overtime.

  <bullet> Deploying Passenger Screening Canine (PSC) teams to support 
        peak volumes. TSA is also converting some cargo screening teams 
        to passenger screening, which will support expedited screening 
        through the remainder of the year.

  <bullet> Working with airports and airlines to increase throughput at 
        passenger checkpoints by reducing the number and size of carry-
        on items.

  <bullet> Partnering with airports and airlines to conduct flight 
        scheduling optimization visits at the highest volume airports. 
        This will allow checkpoint staffing schedules to be better 
        aligned with airline flight schedules so that passenger volume 
        is distributed better over time. TSA is also collaborating with 
        airports and airlines to support non-security screening 
        operations, such as returning bins to the front of waiting 
        lines and other non-security related tasks.

    Longer term efforts may include:

  <bullet> Partnering with industry and the Department of Homeland 
        Security (DHS) Science & Technology Directorate to develop 
        innovative solutions to improve passenger flow, queue design, 
        and increase security effectiveness.

  <bullet> Broadening marketing and outreach efforts for TSA Pre3, to 
        include:

  <bullet> Media advertising, with a focus on top travel markets, 
        hotels, rental cars, credit cards, in-flight magazines, in-
        flight Wi-Fi, and airport signage.

  <bullet> Targeted messages to frequent travelers who are not yet 
        enrolled in a Trusted Traveler program.

  <bullet> Offering TSA Pre3 through airline and other corporate 
        rewards and benefits programs.

  <bullet> Major corporate travel convention presence.

  <bullet> Social media efforts.

  <bullet> Additional corporate and airport mobile and long-term 
        enrollment centers, including TSA-sponsored events.

    Question 2. I understand that TSA is authorized to hire more part-
time screeners, but there is a cap on full time screeners. I know the 
number of screeners at MSP has gone down over the last few years as 
travel volume has increased. How does the cap impact the TSA's ability 
to meet the current demands of airport security and why has there been 
a reduction in the number of screeners?
    Answer. Minneapolis-St. Paul International Airport (MSP) is 
currently allocated 630 Full Time Equivalent (FTE) positions, and as 
part of the $34 million Congress recently approved TSA to reprogram, 
they have been approved for an additional 10 FTE to be used for 
increased overtime, or they can hire more Transportation Security 
Officers in place of the additional overtime.
    The FTE limitation contained in the Fiscal Year (FY) 2016 
appropriations bill does not affect the ability of the Transportation 
Security Administration (TSA) to hire Transportation Security Officers 
(TSO). The limitation of 45,000 FTE does not apply to screeners hired 
as part-time, and there is no restriction on part-time TSOs moving to 
full-time as those positions become available. Rather, the limitation 
comes from the amount of available resources--the FY 2016 
appropriations bill provides funding sufficient for 42,525 TSOs, which 
was above the FY 2016 President's Request, and TSA gained Congressional 
approval to realign $34 million from other TSA funding to support 
additional screening hours to meet this year's unprecedented summer 
surge in passenger traffic.
    TSA's budget for the past two years had proposed reductions in TSO 
FTE as savings accrued from the implementation of TSA Pre3 and other 
risk-based expedited screening programs. These budgets relied on 
earlier projections that did not adequately anticipate the recent 
passenger growth.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Peter Neffenger
    Question 1. On March 22 in Brussels, the world was reminded of the 
essential, non-negotiable need to protect our airports, subways, and 
other critical infrastructure from cowardly, evil acts of destruction. 
Congress was fully aware of such threats in August 2007, when it passed 
landmark legislation requiring the Department of Homeland Security to 
take rigorous, robust action to stem the tide of terrorist threats to 
transportation on our shores--including our surface transportation 
network. These calls for action required TSA to complete a number of 
critical security mandates by August 2008. But now, almost eight years 
since the deadline for these efforts, TSA is nowhere near completion of 
the necessary actions.
    The Implementing Recommendations Act of the 9/11 Commission Act of 
2007 required TSA to take three important actions: (1) ensure all high-
risk target railroads have strong, sufficient security plans; (2) 
ensure public transportation agencies, railroads and bus providers have 
training standards on security threats and conditions for frontline 
employees; and (3) ensure public transportation agencies and railroads 
conduct rigorous, name-based security background checks and immigration 
status checks on all frontline employees. Unfortunately, TSA has not 
met these statutory requirements.
    I raised this issue last year at your nomination hearing, but TSA 
failed to provide definitive timelines. I raised this issue again in 
August after an averted terrorist catastrophe on a train in Europe, and 
TSA informed me that the proposed security-planning rule and the 
training rule were ``in the final stages of regulatory development'' 
and were on track to be published ``by the end of Fiscal Year 2016.'' 
The vetting rule was given a projected time-frame after completion of 
the first two rules--which could be years from now. I received a 
follow-up response from your office last month, informing me that all 
three rules were further delayed: TSA had yet to formally collect 
information and data on how to develop a proposed security-planning 
rule; the proposed training rule would be published ``in 2016''--which 
could be later than the Fiscal Year time-frame I was told in September; 
and the vetting and the background check rule remained ``on a slower 
track.'' All of these timelines concern proposed rules--not even final 
rules.
    Overall, it appears the responsibility for completing these rules 
will fall on the next administration. This is inexcusable. I recognize 
there are some collaborative, consensus-led efforts to achieve the 
goals of the 9/11 Act short of actual rules. But Congress required 
rules, and after a distressing, disheartening decade of foot dragging 
and delay, these rules are nowhere near done. Although many associate 
TSA with aviation, whereas these rules concern surface transportation, 
our passenger rail systems carry five times as many passengers as 
airlines, through a massive nationwide network. It is no less urgent--
and no less within your agency's statutory mandate--that this critical 
infrastructure receive attention and protection immediately.
    Why has TSA failed so dramatically in carrying out these 
requirements? When will TSA finally achieve the results Congress sought 
almost a decade ago?
    Answer. Please be assured that I share your concern and have asked 
my staff for continued updates regarding our work with stakeholders to 
ensure the security of the Nation's surface transportation systems. As 
you noted, notice and comment rulemaking is a complex, time consuming 
process influenced by many factors, including those that are outside of 
the Transportation Security Administration's (TSA) control. 
Notwithstanding these challenges, TSA is making progress in meeting the 
outstanding 9/11 Act requirements and is currently on track to publish 
the security training Notice of Proposed Rulemaking (NPRM) before the 
end of the Fiscal Year. TSA also continues to prioritize the security 
plans and vulnerability assessments, proposed regulation and the 
security background and immigration checks for frontline employees, and 
has identified a path forward that will best position both rules to 
satisfy the stringent standards established by the Office of Management 
and Budget under Executive Order 12866.
    In the interim, TSA has taken numerous actions to ensure that our 
transportation hubs have robust security measures in place to protect 
the public. Based on continued voluntary compliance by our 
stakeholders, we believe the security landscape for high-risk surface 
transportation providers is consistent with anticipated future 
regulatory requirements. These measures are outlined in detail below.

1. Leveraging grant funding and thorough assessments, TSA has ensured 
that high-risk railroads have strong, sufficient security plans.

    The 9/11 Act included requirements for security enhancement grants 
that are applicable to high-risk public transportation agencies 
(including commuter railroads) and Amtrak (secs. 1406 and 1514). Under 
the 9/11 Act's requirements, applicants for funding under the Transit 
Security Grant Program (TSGP) are required to have a current security 
plan in order to be eligible to apply for TSGP funds. The act of 
applying for a grant serves as the transit system's way of attesting it 
has a current security plan, meaning a security plan that has been 
updated within the past three years. Additionally, the grant Notice of 
Funding Opportunity requires that projects for transit systems that are 
seeking funding must be linked back to vulnerabilities identified in 
their security plans; otherwise, the project will not be recommended 
for funding. Of the 114 eligible transit systems (non-ferry) in the 
TSGP including Amtrak, 103 (89 percent) have met these standards as 
they have applied for grants. The same requirements have been 
consistently applied to the other surface modal grant programs as 
required by the 9/11 Act (see sec. 1513 for railroads other than Amtrak 
and sec. 1532 for over-the-road bus security assistance).
    Between Fiscal Year (FY) 2006 and FY 2015, almost $47 million was 
awarded through the TSGP and Amtrak grants specifically for security 
planning efforts and more than $2.2 million for security planning 
efforts through Intercity Bus Security Grant Program (IBSGP/OTRB). 
Between FY 2008 and FY 2011, $4.2 million was awarded through the 
Freight Rail Security Grant Program (FRSGP) for security planning 
efforts. The FRSGP has not been funded since FY 2011.
    Our assessments indicate that this funding has resulted in a 
significant improvement in security planning efforts. Of the 114 
eligible transit (non-ferry) systems eligible under the TSGP, there are 
92 systems that have been assessed at least twice through TSA's 
Baseline Assessment for Security Enhancement (BASE) program. Security 
plans are one of the 17 Security Action Items (SAIs) that TSA assesses 
as part of the BASE. As part of the BASE review, a score is derived 
from a checklist. Each category is then scored and the BASE score is an 
average of all categories. The total aggregate scores for the 92 
transit system security plans that have been assessed more than once 
have increased by 15 percentage points.

2. With TSA funding and sharing of best practices, TSA has ensured that 
public transportation agencies, railroads, and over-the-road bus 
providers have training standards on security threats and conditions 
for frontline employees.

    TSA has ensured that public transportation agencies, railroads, and 
over-the-road bus providers have established training standards to 
enhance security awareness for frontline employees. For example, 
through funding and other support provided by TSA, the American Public 
Transportation Association (APTA) has promulgated standards for 
security awareness training for transit employees. Both the U.S. 
Department of Homeland Security and the U.S. Department of 
Transportation have funded courses that can be used to meet these 
standards. TSA maintains an open discussion with the management of 
freight railroads regarding the scope and content of security awareness 
training for frontline employees. In addition, TSA has provided 
training materials to railroads and allied industries on subjects such 
as recognition and identification of improvised explosive devices in 
the freight rail environment and how to detect and react to signs of 
potential sabotage on and about railroad infrastructure. TSA also 
provided guidance to the railroads in January of 2016 during meetings 
of the Rail Sector Coordinating Council about suggested training 
program content that would comply with the training program elements 
outlined in section 1517 of 9/11 Act. TSA's First 
Observer<SUP>TM </SUP>security domain awareness program delivers web-
based training to highway professionals, including over-the-road bus 
operators, encouraging frontline workers to ``Observe, Assess and 
Report'' suspicious activities.
    From FY 2006-FY 2015, almost $145 million was awarded through the 
TSGP and Amtrak grants specifically for security training and $5.5 
million was awarded through the Intercity Bus Security Grant Program 
(IBSGP/OTRB). Similarly, from FY 2008-FY 2011, through the FRSGP, $7 
million was awarded to support security training conducted by transit 
agencies. This funding included a grant awarded to short line railroads 
for the expressed purposes of developing interactive security training 
programs for frontline employees. Approximately 100,000 individuals 
have been trained on the First Observer<SUP>TM </SUP>Program.
    Our assessments indicate that the above-referenced grant program 
has resulted in a significant improvement in security training. Of the 
92 transit systems eligible under the TSGP that have been assessed at 
least twice as part of TSA's BASE program, 72 percent (66) have seen 
improvements in their training scores, or maintained their current 
level of achievement. Additionally, 67 have security training scores 
greater than 70 percent. The total average security training scores for 
TSGP-eligible systems assessed more than once have increased by 10 
percentage points. Class I freight railroads and many of the Class II 
railroads have made modifications to their employee security awareness 
training programs consistent with requirements under the 9/11 Act.
    TSA has also worked directly to improve the security of key 
transportation facilities and systems serving commuters in your 
congressional district. In addition to providing funding and other 
support to rail systems operated by surrounding jurisdictions that 
serve Connecticut commuters, both CTtransit and the Connecticut 
Department of Transportation (CT DOT) have been eligible for funding 
under the TSGP and have received the following allocations based on 
their requests:

  <bullet> CTtransit: $720,500 since FY 2009

    <ctr-circle> $483,500 for public awareness

    <ctr-circle> $237,000 for CCTV on buses

  <bullet> CT DOT: $29 million since FY 2006

    <ctr-circle> $2.9 million for K-9 teams

    <ctr-circle> $3.2 million for critical infrastructure protection

    <ctr-circle> $6.7 million for public awareness

    <ctr-circle> $0.5 million for security planning

    <ctr-circle> $1.2 million for interoperable communications

    <ctr-circle> $0.7 million for rail yard security

    <ctr-circle> $13.8 million for fiber optic cable

    In addition, TSA has conducted assessments specifically for systems 
providing service in Connecticut. Both CTtransit and the Metro-North 
Railroad Company have been assessed three times. Both systems have 
received Gold Standard awards for achieving overall scores greater than 
90 percent during their last assessments. Specific score information is 
protected as Sensitive Security Information (SSI). TSA can provide this 
information under separate cover upon request.

3. TSA has developed standards for public transportation agencies and 
railroads to conduct rigorous, named-based security background checks 
and immigration status checks.

    In cooperation with the relevant associations (the American Public 
Transportation Association and Association of American Railroads), TSA 
has developed standards for public transportation agencies and 
railroads to conduct named-based background checks. Promulgated in 
2011, APTA's recommended practices for ``conducting background 
investigations'' reflect the requirements for the scope of background 
checks in section 1414 of the 9/11 Act, including redress. Of note, as 
publicly owned systems, transit systems are likely to have access to 
information for criminal history record checks of public employees that 
may not be available to the private industries covered by TSA's 
security threat assessment programs. In addition, since enactment of 
the 9/11 Act, the E-Verify system has become available to all employers 
as a free resource to validate citizenship information on their 
employees. Several states require use of E-Verify for all public 
employees and contractors, which would include employees of public 
transportation systems. BASE data indicates that the average score for 
conducting background investigations of employees and contractors has 
risen from 87 percent in FY 2010 to 94 percent in FY 2015.
    TSA has consistently worked to enhance and maintain the security of 
surface transportation and will continue to do so while simultaneously 
moving forward with promulgation of the regulatory requirements imposed 
under the 9/11 Act.

    Question 2. In 2008, with fuel prices soaring, airlines began 
imposing new surcharges and ``ancillary'' fees to customers. The most 
notable of these fees is the ``bag fee,'' in which airlines charge 
customers a $25 or $50 to bring their bag with them--on top of the 
fare. Not surprising, savvy customers balked at this nickel and diming 
and quickly realized they could avoid the airlines unscrupulous fees 
and fares by simply bringing their bag with them on the plane--just 
carrying it on.
    It appears the airlines' anti-consumer effort could also undermine 
security. More passengers carrying on their bags means more bag 
screening, which leads to longer lines, more ``soft'' targets, greater 
stress on TSA personnel and equipment and resources. I filed an 
amendment in this committee in March to require GAO conduct a study of 
the impact of bag fees on aviation security--including the economic 
losses incurred by waiting in line and whether airlines are paying 
their fair share for these increased costs. I am pursuing that in the 
FAA bill as well. It may seem like a small issue, but airlines are 
making tens of billions from these fees--mostly tax-free--and it 
appears we the taxpayers are picking up the tab for the long lines they 
have caused.
    Do you think the rise of baggage fees could have had an impact on 
longer lines and strain on TSA resources?
    Answer. Looking at the last nine years of TSA data, the average 
ratio of checked bags per passenger declined from a high of 0.81 
checked bags per passenger in 2007, prior to the institution of checked 
baggage fees, to a low of 0.65 checked bags per passenger in 2015. This 
equates to a 20 percent reduction in the amount of checked bags from 
2007 to 2015. In 2015, TSA conducted a small scale study of Southwest 
Airlines passengers and legacy airline passengers. Data from this study 
indicated that Southwest Airlines passengers presented fewer carry-on 
items per person for screening than legacy airline passengers and had a 
correlating increase in the checked baggage ratio.

    Question 3. Last year we saw a major, massive scandal in which it 
was revealed how easy it was for undercover TSA teams to get weapons 
past TSA screeners.
    It was revealed that TSA airport screeners failed to find fake 
explosives and weapons in 67 out of 70 tests that were conducted by 
undercover Federal agents known as a Red Team--a failure rate of 95 
percent.
    What reforms have you carried out to ensure this never happens 
again?
    Answer. The Transportation Security Administration (TSA) has 
implemented a number of near-term steps to address the issues raised by 
the covert testing, which is aligned with the 10-Point Plan directed by 
Secretary Johnson. These steps include initiatives to ensure leadership 
accountability, improve alarm resolution, increase effectiveness and 
deterrence, increase threat testing to sharpen officer performance, 
strengthen operating procedures and technology, and enhance training. 
This included a root cause analysis that identified multiple areas for 
improvement, and TSA is mitigating those areas through program action 
plans. All of the actions directed in the Secretary's 10-Point Plan are 
currently on-schedule or completed.
    Most importantly, TSA corrected numerous immediate problems 
revealed by the covert testing. TSA established a more aggressive 
training plan and retrained the entire workforce with focused Mission 
Essentials. TSA has completed two rounds of Mission Essentials and is 
currently executing Mission Essentials III, which will last through the 
summer. TSA also implemented rapid improvement events for its screening 
equipment to include development of improved detection algorithms. All 
standard operating procedures were rewritten to reduce and focus 
checkpoint operations, and the Administrator's Intent was released to 
ensure the organization's main effort remains its transportation 
security mission.

                                  [all]

                  This page intentionally left blank.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
